Audit Report




OIG-10-015
Audit of the Office of D.C. Pensions’ Fiscal Years 2009 and
2008 Financial Statements

December 7, 2009




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 7, 2009


            MEMORANDUM FOR NANCY OSTROWSKI, DIRECTOR
                           OFFICE OF D.C. PENSIONS

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Audit of the Office of D.C. Pensions’ Fiscal Years 2009 and
                                   2008 Financial Statements


            I am pleased to transmit the attached audited Office of D.C. Pensions (ODCP)
            financial statements for fiscal years 2009 and 2008. Under a contract monitored
            by the Office of Inspector General, KPMG LLP, an independent certified public
            accounting firm, performed an audit of the financial statements of ODCP as of
            September 30, 2009 and 2008 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were presented fairly, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;
                •   no matters involving internal control over financial reporting that are
                    considered material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.

            KPMG LLP also issued a management letter dated November 13, 2009 discussing
            certain matters involving internal control over financial reporting and its operation
            that were identified during the audit but were not required to be included in the
            auditors’ reports.
Page 2


In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated November 13, 2009 and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Manager, Financial Audits at
(202) 927-5407.

Attachment
DISTRICT OF COLUMBIA PENSIONS PROGRAM

              FISCAL YEAR





         ANNUAL REPORT
MESSAGE FROM THE DIRECTOR
November 2009

       n behalf of the Office of D.C. Pensions, I am pleased

O      to present the Fiscal Year (FY) 2009 Annual Report,
       which provides highlights of the significant program
milestones as well as a summary of our future focus areas.

Pursuant to the Balanced Budget Act of 1997, as amended, the
Office of D.C. Pensions is responsible for carrying out the
Secretary of the Treasury's responsibility to fund and
administer the District of Columbia Judges' Retirement Plan
and the federal portion of the District of Columbia Teachers’,
and Police Officers’ and Firefighters’ Retirement Plans. As of September 30, 2009, the
District of Columbia Judicial Retirement and Survivors Annuity Fund, and the District of
Columbia Federal Pension Fund held assets totaling approximately $3.9 billion. During
FY 2009, the Office of D.C. Pensions paid $524 million in federal benefit payments to
approximately 13,600 annuitants and refunds of employee contributions totaling
approximately $0.6 million were made to 38 former active employees or their
beneficiaries.

For the 11th consecutive year, an independent public accounting firm rendered an
unqualified opinion on the FY 2009 financial statements of the Office of D.C. Pensions.
In addition, the auditors did not note any matters involving internal controls that it
considered significant or material, or any instances of noncompliance with laws and
regulations.

During the fiscal year, the Office of D.C. Pensions expanded its quality program by
increasing quality review activities over the System to Administer Retirement (STAR)
production support and hosting services; created a forum for STAR end-users to exchange
information and best practices; and developed a long-term architectural plan which
outlined the STAR upgrade path for the future. These continuous improvements assist the
Office in achieving its strategic goals and objectives.

The Office of D.C. Pensions will continue to work cooperatively with the District of
Columbia Retirement Board, Bureau of the Public Debt, and other Department of the
Treasury and District entities to provide quality service to the annuitants and to
successfully carry out the Department of the Treasury’s responsibilities under the Act.




                                                          Nancy A. Ostrowski, Director
                                                          Office of D.C. Pensions
                                                          Department of the Treasury
(This page left intentionally blank.)
                               TABLE OF CONTENTS



PART 1        MANAGEMENT’S DISCUSSION AND ANALYSIS                          PAGE

  I.     Introduction                                                        1

  II.    Executive Summary                                                   3

  III.   Strategic Goals, Objectives, Outcomes, and Performance Measures     4

  IV.    Five-Year History of the District of Columbia Pensions Program      29

  V.     Limitation of the Financial Statements                              33


PART 2        INDEPENDENT AUDITORS’ REPORTS

         Independent Auditors’ Report                                        37    

         Independent Auditors’ Report on Internal Control Over Financial

              Reporting                                                      39

         Independent Auditors’ Report on Compliance and Other Matters        41


PART 3        FINANCIAL STATEMENTS AND NOTES

         Consolidated Balance Sheets                                         45

         Consolidated Statements of Net Cost                                 46

         Consolidated Statements of Changes in Net Position                  47

         Combined Statements of Budgetary Resources                          48

         Notes to Financial Statements                                       49


PART 4        SUPPLEMENTARY SCHEDULES

         Consolidating Balance Sheets                                        65

         Consolidating Statements of Net Cost                                66

         Consolidating Statements of Changes in Net Position                 67

         Combining Statements of Budgetary Resources                         68

         Consolidating Intra-governmental Balances                           69

         Investments in GAS Securities – Net By Fund                         70

         Investments in Nonmarketable Market-Based GAS Securities –

               Net By Fund and Maturity                                      71

         Intragovernmental Costs and Exchange Revenue                        72

         Administrative Expenses – By Fund                                   73

         Pension Expense – By Fund                                           74    

         Reconciliation of Net Cost of Operations to Budget                  75

(This page left intentionally blank.)
                 PART 1
MANAGEMENT’S DISCUSSION
           AND ANALYSIS
         MANAGEMENT'S DISCUSSION AND ANALYSIS
                  FISCAL YEAR 2009
      Vision:
      The vision of the Office of D.C. Pensions is successful stewardship of the pensions funds, high
      quality benefits administration services and effective use of program resources while fostering
      mutually beneficial relationships with our business partners at the District of Columbia, the
      Bureau of the Public Debt and other Treasury entities.

      Mission:
      The mission of the Office of D.C. Pensions is to implement the Secretary's responsibilities under
      Title XI of the Balanced Budget Act of 1997, Public Law 105-33 (111 Stat. 251, 712), as
      amended. The responsibilities are to make timely and accurate benefit payments associated with
      the District of Columbia retirement programs for police officers and firefighters, teachers and
      judges by managing investments, providing oversight and program management, and ensuring
      funding is available for future payments.



I.   Introduction

A.   Statutory Basis and Responsibilities
     Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the Act),
     the Secretary of the Treasury (the Secretary) assumed certain responsibilities for a
     specific population of annuitants under the following District of Columbia (the District)
     retirement plans: the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’
     Retirement Plan, and the Judges’ Retirement Plan. Specifically, the Secretary is
     responsible for administering the retirement benefits earned by District teachers, police
     officers, and firefighters based upon service accrued prior to July 1, 1997, and retirement
     benefits earned by District judges, regardless of when service accrued.

     The Secretary’s responsibilities include: (1) making accurate and timely benefit
     payments; (2) investing fund assets; and (3) funding pension benefits. To carry out these
     responsibilities, the Department of the Treasury’s (Treasury) Office of D.C. Pensions
     (the Office) engages in a wide range of legal, policy and operational activities in the areas
     of benefits administration, information technology, financial management and program
     management. The Office coordinates with many District entities and stakeholders to
     administer its responsibilities.

     All benefit payments that are the responsibility of the Treasury under the District
     retirement programs are referred to herein as Federal Benefit Payments. All benefit
     payments to which an individual is entitled under the District of Columbia Replacement
     Plan (pertaining to police officers, firefighters, and teachers based upon service accrued
     after June 30, 1997) are referred to as District Benefit Payments. Benefits partially paid
     by Treasury and partially paid by the District of Columbia are referred to as split benefits.




                                                     1
B. Organizational Structure and Staffing
   The Office reports to the Deputy Assistant Secretary for Human Resources and Chief
   Human Capital Officer (DASHR). The DASHR reports to the Assistant Secretary for
   Management and Chief Financial Officer (ASM/CFO). ASM/CFO reports through the
   Deputy Secretary to the Secretary of the Treasury.

   The Office structure consists of three key functional areas: benefits and systems
   administration, finance and resource administration, and program management.
      Benefits and Systems Administration: The Office provides oversight of the benefit
       administration functions for certain District of Columbia retirement plans. The Office
       also operates and maintains the System to Administer Retirement (STAR), an automated
       pension/payroll system, in support of benefits administration. Approximately $582
       million in Federal and District Benefit Payments were made to 13,700 annuitants as of
       September 30, 2009.

      Finance and Resource Administration: The Office is responsible for financial and
       administrative activities related to the benefit administration functions it oversees. The
       Office manages and accounts for net investments in Government Account Series (GAS)
       securities in the federal pension funds totaling approximately $3.8 billion as of
       September 30, 2009. The Office also performs an annual actuarial valuation to
       determine the pension liability of the retirement programs and the annual contribution
       from the Treasury General Fund into the District of Columbia Teachers, Police Officers
       and Firefighters Federal Pension Fund (D.C. Federal Pensions Fund) and the District of
       Columbia Judicial Retirement and Survivors Annuity Fund (Judicial Retirement Fund).

      Program Management: The Office provides oversight of its responsibilities through
       special project management and a quality assurance program, which ensures internal
       program areas and Treasury/District stakeholders meet quality standards.

   As of September 30, 2009, 20 Treasury positions were funded from the D.C. Federal
   Pensions Fund and the Judicial Retirement Fund. In addition, the Office funds and receives
   support from other Treasury offices, the Office of General Counsel, and the Procurement
   Services Division.

   Pursuant to a reimbursable services agreement, Treasury’s Bureau of the Public Debt
   (BPD), Administrative Resource Center (ARC), performs: systems administration and
   hosting for the automated pension/payroll system, accounting, and annuity payroll services.

   Since September 26, 2005, the District of Columbia Retirement Board (DCRB) serves as the
   interim benefits administrator for the Police Officers’ and Firefighters’, and Teachers’
   Retirement Plans. The Office reimburses DCRB for expenses associated with
   administrating the Federal Benefit Payments. Also, as of that date, the Office assumed
   benefit administration responsibility for the Judges’ Retirement Plan.




                                               2
II. Executive Summary

   During Fiscal Year (FY) 2009, the Office of D.C. Pensions (the Office) successfully
   worked with the District of Columbia Retirement Board (DCRB), Treasury’s Bureau of the
   Public Debt (BPD), and other Treasury entities to carry out its responsibilities under the
   provisions in Title XI of the Balanced Budget Act of 1997, as amended.

   The Office achieved a significant milestone with the completion of the core functionality
   for the System to Administer Retirement (STAR) in FY 2008. With the completion of this
   milestone, the Office completed its reorganization in FY 2009 and was able to transition
   from an office whose focus was on supporting a major system development, to one that
   now focuses on operational oversight. As a result, the Office is now positioned to address
   future challenges and increase focus on its mission to make timely and accurate benefit
   payments associated with the District of Columbia retirement programs.

   As part of its increased focus on oversight and program management, the Office is making
   improvements to benefit and system operations. During FY 2009, the Office enhanced its
   quality program, which included a revision of its metrics to better measure program
   performance. To improve benefit operations, the Office created a forum for STAR end-
   users to discuss and share pension and payroll-related matters and recommend process
   improvements. To improve system operations, the Office developed a long-term
   architectural plan that delineates the STAR upgrade path for the next three years.

   In FY 2009, the Office provided successful stewardship of the pension funds and effective
   use of resources. For the 11th consecutive year, the Office received an unqualified audit
   opinion with the support from stakeholders at DCRB and BPD. Additionally, in FY 2009,
   the Office also completed a quintenial experience study to determine the actuarial
   demographic assumptions to be used in the FY 2009-2013 actuarial valuations to ensure the
   continued integrity of future actuarial pension liability estimates.

   In FY 2010, the Office plans to continue the development of a long-term strategic plan, the
   expansion of its oversight and quality program related to benefits, payroll, and systems
   operations as well as implementing STAR architectural requirements and performing a
   STAR certification and accreditation.

   The Management Discussion and Analysis provides more details about both the FY 2009
   program results and the FY 2010 areas for future focus.




                                             3
III. Strategic Goals, Objectives, Outcomes, and Performance
     Measures
   The Office of D.C. Pensions (the Office) has three Strategic Goals that contribute to the
   achievement of two of the Department of the Treasury’s (Treasury) Strategic Goals.

   1. Office Strategic Goal: Effectively Managed Finances

   Office Outcomes:
    Benefit payments are accurate and timely
    Pension funds are effectively invested
    Pension funds are effectively financed
    Pension funds meet future needs

   Treasury Strategic Goal: Effectively Managed U.S. Government Finances

   2. Office Strategic Goal: Management and Organizational Excellence

   Office Outcomes:
    Program is effectively managed

   Treasury Strategic Goal: Management and Organizational Excellence

   3. Office Strategic Goal: Effective Quality Assurance Program

   Office Outcomes:
    Program creates continuous improvement

   Treasury Strategic Goal: Management and Organizational Excellence


   The following table displays the Office’s Strategic Goals, Objectives and Outcomes with a
   link to the two Treasury Strategic Goals. It also identifies the Office’s Performance
   Measures and Results.




                                              4
Office of D.C. Pensions Strategic Goals, Objectives, Outcomes, and Performance Measures

Fiscal Years 2009 - 2011                                                                                             Fiscal Year 2009
                                                                                                                     ODCP Performance
Treasury Goals and Objectives                ODCP Strategic Goals, Objectives, and Outcomes
                                                                                                                     Measures
Treasury              Treasury               ODCP             ODCP                            ODCP                   ODCP
Strategic Goal        Strategic Objective    Strategic Goal   Strategic Objective             Outcomes               Performance Measure
Effectively Managed   Cash resources are     Effectively      Skilled staff and technology    Benefit payments are   New annuitant benefit
U.S. Government       available to operate   Managed          are available to administer     accurate and timely    calculation error rate
Finances              the government         Finances         benefits                                               Target: 5% or less
                                                                                                                     Actual: 1.09%
                                                                                                                     STAR is available to users
                                                                                                                     Target: 98% or more
                                                                                                                     Actual: 99.88%
                                                              Skilled staff and funds are     Pension funds are      Investment strategy
                                                              available to manage financial   effectively invested   developed timely
                                                              activities                                             Target: Third week of
                                                                                                                     September
                                                                                                                     Actual: September 24, 2009
                                                                                                                     Investment strategy
                                                                                                                     implemented timely
                                                                                                                     Target: 100%
                                                                                                                     Actual: 100%
                                                                                              Pension funds are      Minimum daily cash
                                                                                              effectively financed   balance equivalent to two
                                                                                                                     months of benefit payments
                                                                                                                     Target: 100%
                                                                                                                     Actual: 98.5%
                                                                                                                     Annual Contribution from
                                                                                                                     General Fund received into
                                                                                                                     the D.C. Federal Pension
                                                                                                                     and Judicial Retirement
                                                                                                                     Funds
                                                                                                                     Target: September 30, 2009
                                                                                                                     Actual: September 24, 2009


                                                                  5
Fiscal Years 2009 - 2011                                                                                               Fiscal Year 2009
                                                                                                                       ODCP Performance
Treasury Goals and Objectives                  ODCP Strategic Goals, Objectives, and Outcomes
                                                                                                                       Measures
Treasury               Treasury                ODCP             ODCP                            ODCP                   ODCP
Strategic Goal         Strategic Objective     Strategic Goal   Strategic Objective             Outcomes               Performance Measure
Effectively Managed    Cash resources are      Effectively      Skilled staff and funds are     Pension funds are      Monthly payments made to
U.S. Government        available to operate    Managed          available to manage financial   effectively financed   annuitants by the first
Finances (continued)   the government          Finances         activities (continued)          (continued)            business day of the month
                       (continued)             (continued)                                                             Target: 100%
                                                                                                                       Actual: 100%
                                                                                                                       Electronic payments made
                                                                                                                       to annuitants
                                                                                                                       Target: 94%
                                                                                                                       Actual: 94.50%
                                                                                                                       Vendor and travel
                                                                                                                       payments made timely
                                                                                                                       Target: 100%
                                                                                                                       Actual: 100%
                                                                                                Pension funds meet     Actuarial calculation of
                                                                                                future needs           annual contribution from
                                                                                                                       General Fund prepared
                                                                                                                       timely
                                                                                                                       Target: November 15, 2008
                                                                                                                       Actual: November 7, 2008
Management and         Enabled and effective   Management and   Skilled staff and management    Program is             Office employees received
Organizational         Treasury Department     Organizational   tools are available             effectively managed    timely annual performance
Excellence                                     Excellence                                                              plans and quarterly reviews
                                                                                                                       Target: 100%
                                                                                                                       Actual: 100%
                                                                                                                       Financial Statement Audit
                                                                                                                       Opinion received from an
                                                                                                                       independent external
                                                                                                                       auditor
                                                                                                                       Target: Unqualified opinion
                                                                                                                       Actual: Unqualified opinion


                                                                    6

Fiscal Years 2009 - 2011                                                                                              Fiscal Year 2009
                                                                                                                      ODCP Performance
Treasury Goals and Objectives               ODCP Strategic Goals, Objectives, and Outcomes
                                                                                                                      Measures
Treasury            Treasury                ODCP                ODCP                            ODCP                  ODCP
Strategic Goal      Strategic Objective     Strategic Goal      Strategic Objective             Outcomes              Performance Measure
Management and      Enabled and effective   Management and      Skilled staff and management    Program is            Annual Report and
Organizational      Treasury Department     Organizational      tools are available             effectively managed   Financial Statements
Excellence          (continued)             Excellence          (continued)                     (continued)           prepared timely
(continued)                                 (continued)                                                               Target: December 15, 2008
                                                                                                                      Actual: December 5, 2008
                                                                                                                      Open financial management
                                                                                                                      material weaknesses or
                                                                                                                      corrective actions as of
                                                                                                                      September 30
                                                                                                                      Target: 0
                                                                                                                      Actual: 0
                                                                                                                      Actuarial valuation
                                                                                                                      completed timely
                                                                                                                      Target: November 15, 2008
                                                                                                                      Actual: November 7, 2008
                                            Effective Quality   Quality plans are operational   Program creates       Quality assurance plans
                                            Assurance           in each area                    continuous            developed by October 1
                                            Program                                             improvement           Target: 100%
                                                                                                                      Actual: 100%




                                                                    7

A. Benefit payments are accurate and timely

1.   Program Results

     a. Benefits Administration

     General Operations

     Benefits administration services were provided to 13,700 annuitants, as of
     September 30, 2009, in three District of Columbia retirement plans: the Police Officers’ and
     Firefighters’ Retirement Plan, the Teachers’ Retirement Plan, and the Judges’ Retirement
     Plan. The annuitant population within each plan is as follows: teachers, 6,023; police officers
     and firefighters, 7,599; and judges, 78.
                                            Judges 0.6%


                                                                  Teachers
                        Police/Fire                                44.0%
                          55.4%




     In FY 2009, the monthly Federal and District Benefit Payments averaged approximately
     $48.5 million. During the year, all payment files were submitted on time ensuring timely
     payment of annuitant benefits by the first business day of the month. With oversight and
     support by the Office of D.C. Pensions (the Office), the District of Columbia’s Retirement
     Board (DCRB) performed benefits administration services for the Police Officers’ and
     Firefighters’ Retirement Plan and the Teachers’ Retirement Plan, while the Office performed
     benefits administration for the Judges’ Retirement Plan.

     General operations focus largely on transaction processing and customer service activities.
     On a monthly basis, the transaction processing represents a variety of activities from
     processing new retirements and/or survivor benefits, to terminating those no longer eligible,
     and to updating annuitants’ personal and benefits information.

                     FY 2009 Average Monthly Processing in Key Areas
               Customer Service Activity                         Monthly Volume
               New Retirements                                         32
               New Beneficiaries/Estates                               14
               Purchase of Service                                      3
               Direct Deposit Changes                                  62
               New Survivors                                           11
               Qualified Domestic Relations Orders (QDRO)              <1
               Refunds                                                 38
               Tax Changes                                            169

                                                 8

Equally important to transaction processing is customer service. The DCRB customer service
team performed a wide range of activities, including resolving annuitant inquiries.

In FY 2009, the average monthly support from the customer service team included:

� Answering Calls – 1,322 per month
� Servicing Walk-ins – 75 per month

The Office encourages annuitants to receive benefits through direct deposit. Direct deposit is a
more convenient, secure and timely method of delivering benefits. At fiscal year end, the
Electronic Funds Transfer (EFT) participation rate for annuitants in all retirement plans was
94.5%, a 0.5% increase from the previous year. The table below illustrates the EFT
participation rates for annuitants by retirement plan.


                          Percentage of EFT Participation
                   Annuitants            2009             2008
                   Police/Fire          93.6%            93.3%
                    Teachers            95.6%            94.9%
                     Judges             98.7%            98.7%


In FY 2009, a variety of outreach efforts provided accurate and timely information to
annuitants, including:

�   Letters notifying annuitants when their benefits changed
�   Earning statement messages alerting annuitants to changes (such as a cost-of-living 

    adjustment) or opportunities (e.g., signing up for direct deposit) 

�   DCRB newsletter (which provides important plan information for active and retired police
    officers, firefighters, and teachers)
�   Special correspondence (which provide annuitants with additional information about the 

    plans such as EFT enrollments) 


Annuitant Satisfaction

In FY 2009, DCRB continued to reach out to annuitants for feedback regarding customer
satisfaction. The annuitant survey form asked participants to rate the patience, professionalism,
knowledge, responsiveness, and courteousness of the person with whom the annuitant spoke. In
addition, the survey asked how satisfied the caller was with the process, their overall experience
with the Member Services Center, their wait time, and their perception of the customer service
representatives’ ability to understand their issue and help them. Ratings range from 1
(excellent) to 5 (poor). Responses from the annuitants surveyed, indicated that the services
provided were excellent.




                                              9

     Change Control Board (CCB)

     The Office established the STAR Change Control Board (CCB) in FY 2002 as the approving
     authority for all system changes. The CCB evaluates the costs, benefits, and risks associated
     with any proposed change. The Board establishes the priority order of work relating to
     approved changes. The CCB process enhances internal controls and accountability for new
     proposed changes. Changes are categorized as either a Change Request (CR) or as a
     Configuration Item Change Request (CICR).

     A CR generally addresses a major project such as a new release or an upgrade. CRs are
     reviewed by an Advisory Committee and must be approved by the CCB. There were five CRs
     submitted during FY 2009. Of the five CRs, one has been completed. Two CRs are in
     progress and are expected to be completed early in FY 2010. One CR was withdrawn, and one
     was approved, but was placed on hold due to its limited impact and competing priorities.

     A CICR typically addresses a change with a lesser impact to the system. Two CICRs were
     carried over from FY 2008 and completed in early FY 2009. During FY 2009, 22 CICRs were
     approved, of which 18 were completed, three remained open pending completion, and one was
     placed on hold.

     A variety of topics relating to modifications to the STAR system were addressed through the
     Change Control Process during the fiscal year. Topics included security enhancements,
     automation of processes to improve timeliness and reduce errors, and improvements in
     reporting. In FY 2009, the Office conducted a review of the Change Control Process. Both the
     CCB Charter and the CCB Plan were revised to update CCB membership, dollar threshold for
     CICRs, and voting procedures.

2.   Future Focus

     a. Benefits Administration

     Scanning Retirement Benefit Records

     The scanning project will enable more reliable preservation of retirement records and provide
     immediate access of retirement records at the user’s desktop. In FY 2009, DCRB completed
     scanning of benefit records received through December 31, 2007. Currently, DCRB is in the
     process of completing the scanning of documents received after December 31, 2007.

     b. System to Administer Retirement (STAR)

     STAR Certification & Accreditation

     The Federal Information Security Management Act (FISMA) and the standards defined by the
     National Institute of Standards and Technology (NIST) require that a full security certification
     and accreditation (C&A) be accomplished at least every three years. STAR’s previous C&A
     was completed in August 2007. The next scheduled STAR recertification is scheduled to take
     place by August 2010.


                                                 13
Payroll Operations

Treasury’s Bureau of the Public Debt, Administrative Resource Center (BPD/ARC) provides a
variety of services to the Office including payroll operations, third party reporting, and mail
management.

BPD/ARC utilizes the System to Administer Retirement (STAR), the automated
pension/payroll system that supports benefits administration and payroll operations, to process
monthly benefit payments. In FY 2009, BPD/ARC staff made 164,040 benefit payments
totaling approximately $582 million for a monthly average of nearly $48.5 million. BPD/ARC
works closely with DCRB to process monthly annuity payments and insurance carriers’
payments. During FY 2009, BPD/ARC continued to provide a high level of customer service as
well as accurate and timely processing.

In addition, BPD/ARC provides mail management support to ensure that monthly earnings
statements and other annuitant communications are distributed in an efficient and timely
manner.

Special Benefit Administration Projects

Scanning Retirement Benefit Records

DCRB is in the process of implementing a document imaging and workflow management
system for retirement benefit records with support from the Office. The first phase of this
project involved scanning 2.8 million images for retirement records dating over many decades.
DCRB completed the back-file conversion relating to documents received through
December 31, 2007. DCRB scanned approximately 62% of the images in FY 2008 and the
remaining images were scanned in FY 2009.

Judges’ Summary Plan Description (SPD)

The Office completed its revisions to the SPD for the District of Columbia Judges’ Retirement
Plan in FY 2008 and distributed the updated version of the SPD in early FY 2009. It is required
that an updated SPD be published every five years. The SPD is designed to provide plan
members with accurate and easy to understand information about the Retirement Plan. This
includes information on eligibility, benefit calculations and receiving benefits.

b. System to Administer Retirement (STAR)

General Overview

STAR is an automated pension/payroll system. Developed by the Office in cooperation with
the District, STAR supports the end-to-end business processes for retirement, streamlines the
administration and payment of pension benefits to annuitants, and enhances customer service.
STAR enables pension analysts to quickly access information and provide annuitants with real-
time customer service. In addition to processing retirements, STAR calculates the split for
Federal and District Benefit Payments.


                                            10
STAR is based on Oracle/PeopleSoft’s off-the-shelf software for human resources, pensions,
and payroll administration. The STAR implementation was phased and deployed in bundles
known as releases.

   Release 1 of STAR was implemented in December 2002 to serve all annuitants of the
    Judges’ Retirement Plan.
   Release 2 of STAR was implemented in September 2003 to serve teachers, police officers,
    and firefighters who retired on or before June 30, 1997, and their survivors.
   Release 3 of STAR, which supported annuitants who retired on or after July 1, 1997,
    including newly retired teachers, police officers and firefighter retirees, and their subsequent
    survivors, was deployed in August 2005.
   Release 4 of STAR started the implementation of the split benefit calculation to enable
    STAR to calculate the federal and District share (split) for benefit payments. Release 4 was
    implemented in June 2007 to calculate the split for future payments to those annuitants who
    were brought into pay status on or after June 4, 2007. This release also included an upgrade
    of Oracle/PeopleSoft from version 8.0 to 8.9.
   Release 5 of STAR was implemented in November 2007 and completed the implementation
    of the split benefit calculation.

The split benefit calculation involved three phases of work. These phases were implemented
with STAR Releases 4 and 5 as follows:

   Phase 1 was deployed as an integral part of STAR Release 4. It enabled STAR to calculate
    the split benefits for annuitants brought into pay status beginning in June 2007.
   Phase 2 was completed as part of STAR Release 5. The split was calculated for future
    benefit payments to annuitants whose initial retirement processing took place in STAR
    between August 2005 and June 2007.
   Phase 3 was completed as part of Release 5 and calculated the split for the future benefit
    payments to annuitants who retired after June 30, 1997, and whose initial retirement
    processing took place in the District’s legacy system, PAPS or Pension Administration and
    Payroll System. These annuitants were converted into STAR in August 2005 as part of
    Release 3.

STAR Technical Production Support and Hosting

System hosting and technical production support for STAR is performed by Treasury’s Bureau
of the Public Debt (BPD). Since September 2003, BPD staff members have provided
production support activities, including routine system operations, application and database
administration, help desk operations, and problem resolution. In FY 2009, STAR was available
to the user population 99.88% of the time. A supplemental support contract is also in place to
provide assistance to BPD in both operations and maintenance activities as well as potential
larger-scale development work.




                                              11
STAR System Security

In FY 2007, the STAR system renewed its security certification and accreditation (C&A) in
compliance with the Federal requirement for completing updates at least every three years.
The certification is the comprehensive and continual testing and evaluation of the management,
operational, and technical controls of an IT system. The accreditation is the official
management authorization to operate an IT system and to explicitly accept the risk to agency
operations, agency assets, or individuals based on the implementation of security controls. As
part of continuous monitoring, a Security Test and Evaluation (ST&E) has been conducted
annually in FY 2008 and FY 2009. The Office reviews the results and addresses any potential
security vulnerabilities identified in the ST&E reports.

STAR Long-Term Architectural Plan

The last STAR Oracle/PeopleSoft application upgrade occurred with the implementation of
Release 4 in June 2007. In FY 2009, the Office developed a long-term architecture
implementation plan that describes STAR architectural changes necessary over the next three
years to meet security requirements and stay current with commercial off-the-shelf software
versions. Implementation of the plan began in FY 2009 with a database upgrade and an impact
analysis on upcoming application upgrades.

STAR Technical Support Program Review

Once the core functionality was developed in STAR in FY 2008, full responsibility for STAR
operations/maintenance was transitioned to BPD. During FY 2009, the Office conducted a
comprehensive review of these responsibilities to ensure established industry standards and
service levels were met. Preliminary findings identified opportunities for process
improvements and efficiencies in the areas of requirements management, configuration
management, and testing. The results of this review are due in early FY 2010.

STAR Business Continuity Plan

The Office has established a STAR Contingency Plan to address potential disruptions in
service. As part of the plan, the Office routinely conducts contingency site tests to verify the
accuracy and integrity of the data and functionality of the contingency system.

In April 2009, the STAR system had an unexpected interruption during the preparation for an
upgrade and successfully transitioned to the contingency site. The annual contingency test
requirement was met with the successful transition to the contingency site during the April
interruption.




                                             12

     STAR Long-Term Architectural Plan

     During FY 2009, the Office developed a long-term architecture implementation plan. The
     implementation of the plan will begin during FY 2010 with a replacement of the hardware.
     After the hardware replacement is completed, the STAR database will be upgraded with the
     latest database version available. The new database version will be needed to support a future
     Oracle/PeopleTools software upgrade. Additional software upgrades will be needed in future
     years to maintain vendor support.

     STAR Technical Support Program Review

     During FY 2009, a program review was conducted to evaluate STAR operations and identified
     operational improvement areas and additional metrics to measure STAR’s performance. As
     part of the program review, an independent verification and validation was conducted on the
     operations, software development, configuration management, and program management
     elements. The identified improvements will enhance overall operations and maintenance of the
     system. The Office will work with BPD to address improvements identified during the review
     and will begin implementation in FY 2010.

B. Pension Funds are effectively invested, financed and meet future needs

1.   Program Results

     a. Pension Funds

     Pursuant to the District of Columbia Retirement Protection Improvement Act of 2004, Public
     Law 108-489, the Office of D.C. Pensions (the Office) administers Federal Benefit Payments
     through two funds:

        The District of Columbia Teachers, Police Officers, and Firefighters Federal Pension
         Fund (D.C. Federal Pension Fund) makes Federal Benefit Payments and pays necessary
         administrative expenses for the Police Officers’ and Firefighters’, and Teachers’
         Retirement Plans. The D.C. Federal Pension Fund is not a typical pension fund in that it
         does not receive employee and employer contributions. The sources of funding for the
         D.C. Federal Pension Fund are: payments from the District of Columbia Retirement Board
         (DCRB); an annual federal payment amortizing the unfunded liability assumed from the
         District and any additional liabilities; and interest earned on investments.

        The District of Columbia Judicial Retirement and Survivors Annuity Fund (Judicial
         Retirement Fund) accumulates funds to finance Federal Benefit Payments and necessary
         administrative expenses of the Judicial Retirement Plan. There are three funding sources
         for the Judicial Retirement Fund: employee contributions; an annual federal payment
         amortizing the unfunded liability assumed from the District and any additional liabilities;
         and interest earned on investments.




                                                 14
b. Deposits

Warrants

As authorized by the Act, the D.C. Federal Pension Fund and the Judicial Retirement Fund
receive annual payments from the Treasury General Fund to amortize the unfunded liabilities
of the retirement programs assumed by the Federal government over 30 years, the annual net
experience gains or losses over 10 years, and any annual changes in actuarial liabilities over
20 years. The annual payment to the Judicial Retirement Fund also includes amounts
necessary to fund the normal cost of the retirement program and fund covered administrative
expenses for the year. Beginning in FY 2009, the annual payment to the D.C. Federal Pension
Fund also includes an amount to fund covered administrative expenses for the year.

In accordance with the Act, annual payments are made in September each year and are
invested in Government Account Series (GAS), non-marketable Treasury securities, with
maturities consistent with the expected payment dates of the pension liabilities. In FY 2009,
$400.3 million was deposited into the D.C. Federal Pensions Fund and $7.04 million was
deposited into the Judicial Retirement Fund. In FY 2008, $340.2 million was deposited into
the D.C. Federal Pension Fund and $6.98 million into the Judicial Retirement Fund.

Interest

In FY 2009, the Office received $147.2 million of interest ($129.2 million earned) in the
D.C. Federal Pension Fund and $5.2 million ($4.6 million earned) in the Judicial Retirement
Fund. The rate of return in FY 2009 for the Office’s pension funds was 3.8% for the
D.C. Federal Pension Fund and 3.9% for the Judicial Retirement Fund. In FY 2008, the Office
received $178.3 million of interest ($145.5 million earned) in the D.C. Federal Pension Fund
and $6.7 million ($4.5 million earned) in the Judicial Retirement Fund. The rate of return in
FY 2008 for the Office’s pension funds was 4.2% for the D.C. Federal Pension Fund and 5.1%
for the Judicial Retirement Fund. The rate of return is calculated by dividing interest earned
from GAS securities by the average par value of investments in GAS securities. Interest
earned from GAS securities includes the amortization of premiums and discounts.

Judges Employee Contributions

Active judges are required to contribute 3.5% of salary to the Judicial Retirement Fund to pay
for part of the cost of their retirement benefits. Active judges who elect a survivor annuity
contribute an additional 3.5% of salary. Active judges’ contributions to the retirement fund in
FY 2009 totaled approximately $613,000. In FY 2008, active judges’ contributions to the
retirement fund totaled $597,000.




                                            15
Summary of Fund Deposits

The following table reflects the cash deposits to the D.C. Federal Pension Fund and the Judicial
Retirement Fund for FY 2009 and FY 2008, respectively.


                       Fund Deposits by Fiscal Year (in millions)
                  Fund                 Type of Deposit         2009            2008
                                      Warrant                  $400.3          $340.2
       D.C. Federal Pension Fund      Interest                 $147.2          $178.3
                                      Contributions               $0.0           $0.0
                                      Warrant                     $7.1           $7.0
        Judicial Retirement Fund      Interest                    $5.2           $6.7
                                      Contributions               $0.6           $0.6
                                      Warrants                 $407.4          $347.2
                  Total               Interest                 $152.4          $185.0
                                      Contributions               $0.6           $0.6



c. Collections

District Benefit Payments

Treasury initially funds all benefit payments under the Police Officers’ and Firefighters’ and
Teachers’ Retirement Plans from the D.C. Federal Pension Fund. DCRB then reimburses the
D.C. Federal Pension Fund for benefit payments made by Treasury on behalf of the District.
Until July 1, 2007 DCRB only reimbursed the D.C. Federal Pension Fund annually for
estimated District Benefit Payments made by Treasury for the prior year. On July 1, 2007, the
DCRB began reimbursing Treasury approximately $3.0 million monthly for estimated District
Benefit Payments made by Treasury on the District’s behalf.

In November and December 2007, the DCRB reimbursed Treasury $3.5 million monthly for
District Benefit Payments earned in the previous month. Each of the two monthly
reimbursements was one-twelfth of the estimated District liability for FY 2008, as determined
by the DCRB actuary. Beginning in January 2008, monthly DCRB reimbursements for
District Benefit Payments have been based on the STAR calculation of the actual District
liability. The STAR Split Reimbursement Summary Report supports DCRB reimbursements
made to Treasury each month. The FY 2009 reimbursements for District Benefit Payments
totaled $58.1 million. The FY 2008 reimbursements for District Benefit Payments totaled
$47.1 million.




                                           16 

Refunds Reconciliation Project

The First Amended Memorandum of Understanding (MOU), dated September 28, 2000,
required Treasury to pay the total amount of refunds of employee contributions during the
interim benefits period. On February 1, 2005, Treasury entered into a MOU with the DCRB
and the District of Columbia’s Office of Pay and Retirement Services (OPRS) concerning
refunds of employee contributions under the Police Officers’ and Firefighters’, and Teachers’
Retirement Plans. Under this agreement, DCRB agreed to fund refunds of employee
contributions paid on and after February 1, 2005, in accordance with the respective statutory
responsibilities (i.e., refunds of contributions deducted from employee salary on or before
June 30, 1997, are a federal liability and refunds of contributions deducted after June 30, 1997,
are a District liability).

In addition to agreeing to fund amounts paid on and after February 1, 2005, the District agreed
to reimburse Treasury for that portion of refunds paid by Treasury prior to February 1, 2005,
that represents contributions deducted and withheld from an employee’s salary or deposits after
June 30, 1997. In FY 2009, the District was billed $614,068 for its share of the refunds paid in
FY 1999. This amount does not include the refunds of contributions for 138 employees or
beneficiaries paid in FY 1999, as additional information is needed before these cases can be
reconciled. Therefore, the 138 cases excluded from the FY 1999 refunds reconciliation will be
added to a future request for reimbursement. Nearly $17 million have been collected for
refunds paid in FYs 2005 through 2000. A receivable of $985,000 has been established for
FY 1999 and a receivable of $200,000 for FYs 1998 through 1997.

The table below summarizes the Treasury and District share of reconciled refunds.

                Refund Reconciliation Project by Fiscal Year (in millions)
                      ¹                                                                     ²              ³
                2005       2004        2003       2002        2001       2000        1999        1998-97
  Treasury       $0.5       $1.8        $1.2       $2.7        $2.3       $2.9        $1.9          $5.6
  District        1.4        4.7         3.2        3.7         2.3        1.6         0.6           0.2
   Total         $1.9       $6.5        $4.4       $6.4        $4.6       $4.5        $2.5          $5.8
 1
   FY 2005 includes refunds paid from October 1, 2004, through February 15, 2005.

 2
   An additional reimbursement in the amount of $0.4 million is expected for FY 1999 refunds.

 3
   FYs 1997 through 1998 are estimates.


Debt Management

During FY 2009, the Office pursued debt prevention and collection efforts working with
Treasury’s Bureau of the Public Debt, Administrative Resource Center (BPD/ARC), which
manages the debt collection process for the Office. In FY 2009, debt prevention efforts
ensured that a total of $851,944 was immediately recovered upon timely notification of an
annuitant’s death or in cases of payment errors. During the fiscal year, $108,073 was collected
through offsets, lump sum payments or installment payments as a result of debt collection
efforts.



                                                  17 

The FY 2008 agreement with the Financial Management Service’s (FMS) Cross-Servicing
Program, a tool to enhance the Office’s means for collecting debt, was extended to include
FY 2009. As of September 30, 2009, BPD/ARC referred nine cases to FMS for collection on
behalf of the Office. In addition, the Office continued to review and streamline its debt
management practices and met with stakeholders periodically to outline improvements in debt
prevention and collection areas.

STAR Administration Expense Reimbursements

The Office and DCRB have developed a methodology for allocating STAR administration
costs incurred by both entities in administering District and Federal Benefit Payments. The
methodology takes into consideration the number of 100% federal annuitants, 100% District
annuitants, and split annuitants. Applying this methodology, the Office and DCRB entered
into a cost sharing agreement for reimbursement of FY 2009 actual expenses. Pursuant to the
agreement, DCRB will reimburse the Office approximately $0.6 million for the Office’s
expenses in developing and operating STAR to administer District Benefit Payments. In
FY 2008, DCRB reimbursed the Office $1.0 million for administrative expenses associated
with the operation of STAR.

d. Investments

As required by the Act, amounts received in the D.C. Federal Pension Fund and the Judicial
Retirement Fund are invested in non-marketable securities issued to mirror the characteristics
of marketable securities. The Bureau of the Public Debt (BPD) invests the assets of the
pension funds based on investment guidance from the Office. The Office follows a ―ladder‖
approach, scheduling maturities in amounts sufficient to meet the obligations to pay benefits
and administrative expenses projected by annual actuarial valuations. Investment policy in the
pension funds strikes a balance between ensuring the Office can meet short-term obligations
and extending the ladder.

In FY 2009, the cash balance available for contingencies was targeted not to fall below
$90 million, which is approximately two months of federal obligations. The Office invested
the cash balances in one-day certificates, except for an un-invested balance of $250,000 at
month end, to cover unanticipated withdrawals on the last day of the month. In FY 2009, the
Office extended the maturity dates of securities in the D.C. Federal Pension Fund to
November 2015 and for securities in the Judicial Retirement Fund to February 2019.

Investments are valued at cost, adjusted for unamortized premiums and discounts, if applicable.
The premiums and discounts are recognized as adjustments to interest income, utilizing the
effective interest method. Net investments totaled approximately $3.8 billion as of
September 30, 2009 and September 30, 2008, respectively. The following table reflects the net
investments breakdown by fund.




                                           18
             Net Investments at September 30, 2009 and 2008 (in millions)
                      Fund                  2009                2008
           D.C. Federal Pension Fund      $3,710.5            $3,702.5
            Judicial Retirement Fund          128.8              124.8
                      Total               $3,839.3            $3,827.3

e. Payments

Annuity Benefit Payments

Pension benefit payments issued by the Office totaled $574 million and $8 million from the
D.C. Federal Pension Fund and Judicial Retirement Fund, respectively, for FY 2009. The
Office issued $545.1 million and $7.2 million, respectively, for FY 2008. DCRB then
reimbursed the D.C. Federal Pension Fund for benefit payments made by Treasury on the
District’s behalf. After the DCRB reimbursement, Federal Benefit Payments totaled $516
million from the D.C. Federal Pension Fund for FY 2009 and $498.6 million for FY 2008.

Refunds of Employee Contributions

DCRB processes refunds of contributions for active employees and requests payment from
Treasury for the federal portion. During FY 2009, approximately $0.6 million represented
contribution refunds to plan participants of the D.C. Federal Pension Fund. For FY 2008,
approximately $0.6 million represented contribution refunds to plan participants of the
D.C. Federal Pension Fund. No contribution refunds were made to plan participants in the
Judicial Retirement Fund during FY 2009 or FY 2008.

Administrative Expenses

The Office funds administrative expenses to support federal responsibilities for the retirement
programs under the Act from the D.C. Federal Pension Fund and the Judicial Retirement Fund.
When administrative expenses related to activities that benefit all of the retirement programs
occur, expenses are usually allocated 99% to the D.C. Federal Pension Fund and 1% to the
Judicial Retirement Fund. The allocation percentages are based on the number of annuitants
covered by each Fund. When expenses benefit only one group, or when a different allocation
is clearly appropriate, expenses are charged accordingly.

In FY 2009, administrative expenses were approximately $14.5 million for the D.C. Federal
Pension Fund and $0.8 million for the Judicial Retirement Fund, for a total of $15.3 million.
In FY 2008, administrative expenses were approximately $17.5 million for the D.C. Federal
Pension Fund and $0.9 million for the Judicial Retirement Fund, for a total of $18.4 million.
Administrative expenses in FY 2009, as compared to FY 2008, decreased by $3.1 million
primarily due to a decrease in amortization costs as a result of certain assets becoming fully
amortized in FY 2008.




                                            19 

The major administrative expenses resulted from reimbursement of DCRB benefit
administration and support function expenses, the Office’s staff salaries and benefits, and
contractors engaged by the Office to provide IT systems support. Certain costs of the STAR
pension/payroll system for hardware, software, and system development were capitalized as
equipment and internal use software. The Office has been amortizing STAR development
costs monthly in the Judicial Retirement Fund and the D.C. Federal Pension Fund on a five-
year schedule. The following table reflects administrative expenses by fund.

                 Administrative Expenses by Fiscal Year (in millions)
                    Fund                   2009          2008         Difference
          D.C. Federal Pension Fund        $14.5         $17.5           ($3.0)
           Judicial Retirement Fund          0.8           0.9            (0.1)
                    Total                  $15.3         $18.4           ($3.1)


Improper Payments Information Act

The Improper Payment Information Act (IPIA) requires agencies to report annually on the
extent of improper payments, and the actions being taken to reduce them, for all potentially
high-risk programs and activities meeting specific criteria. On behalf of the Office, BPD/ARC
completed a risk assessment for each payment type (e.g., contract payments/ invoices,
claims/vouchers, etc.) in accordance with guidance issued by the U.S. Office of Management
and Budget (OMB). During FY 2009, there were no high risk payment types identified during
the review.

Prompt Payment Act and Electronic Payments

The Prompt Payment Act was enacted to ensure that suppliers doing business with the Federal
government are paid by the government in a timely manner. The Office paid 100% of the 96
invoices received within the timeframes required by the Prompt Payment Act.

For reasons of reliability and security, Treasury's Fiscal Assistant Secretary and the Financial
Management Service encourage Federal agencies to use electronic payments. In FY 2009, the
Office paid 100% of the 160 payments, which include invoices and travel reimbursements, by
electronic funds transfer. All 160 payments were processed electronically, including 85% by
EFT and 15% by credit card. In FY 2008, of the 157 electronic payments made, 71% were
EFT and 29% were made by credit card.

Benefit Administration Expense Reimbursements

The Office and DCRB have developed a methodology for allocating costs incurred by DCRB
in administering District and Federal Benefit Payments. The methodology takes into
consideration: (1) the number of active employees, 100% federal annuitants, 100% District
annuitants, and split annuitants; (2) the estimated DCRB resources needed to support these
populations; and (3) the number of employees throughout DCRB who are dedicated to



                                            20 

supporting the benefits administration function. Applying this methodology, the Office and
DCRB entered into a cost sharing agreement for reimbursement of FY 2009 actual expenses.
Pursuant to the agreement, the Office will reimburse DCRB approximately $3.1 million for
FY 2009 expenses incurred in administering Federal Benefit Payments. The Office reimbursed
DCRB approximately $2.6 million in FY 2008 for expenses incurred in administering Federal
Benefit Payments.

f. Financial Operations

Oracle Federal Financials (ORACLE)

Pursuant to a reimbursable services agreement, BPD/ARC performs accounting services using
Oracle Federal Financial (ORACLE) for the Office. ORACLE is a core financial management
product used to process all financial transactions. The Office’s transactions are entered into
ORACLE both manually and via custom interfaces from ancillary systems such as PRISM and
GovTrip. BPD/ARC provides a report writer package called Discoverer which allows the
Office to generate various accounting reports.

3-Day Close

Since April 2001, the Office has closed its books each month within three working days. The
Office has been rated green (the highest rating) since February 2002 for all data quality checks
on the monthly data quality scorecard maintained by Treasury’s Office of Accounting and
Internal Control.

g. Actuarial Activities

Actuarial Experience Study

During FY 2009, the Office contracted with Ed Friend, Inc. (EFI), an actuarial services
provider, to perform a quintenial actuarial experience study. As part of the experience study,
EFI reviewed actuarial demographic assumptions used in the FY 2009 - 2013 valuations.
Demographic assumptions include the mortality, termination, retirement, and salary rates that
are used to predict future payments of benefits. The more closely the assumptions reflect the
actual experience, the more accurate the annual actuarial liability will be for each of the
retirement plan funds. The Office is following actuarial best practices by reviewing the
demographic assumptions used in the valuations every five years.

As a result of the study, new rates of normal retirement, disability retirement, termination, and
non-disability mortality for police officers, firefighters, and teachers were proposed and
accepted. New normal retirement rates were proposed and accepted for judges. New pay
increase assumptions were proposed and accepted for police officers, firefighters, and teachers.




                                            21
Actuarial Valuation

In FY 2009, EFI performed the annual actuarial valuation as required by the Act. The actuarial
valuation is used to determine the pension liability of the retirement programs administered by
the Office. The actuarial liability, as of October 1, 2009, was determined using the new
demographic rates and new pay assumption rates recommended in the experience study. The
reduction in the rates of non-disability mortality for police officers, firefighters, and teachers
had the most impact, accounting for a significant portion of the $250.4 million increase in the
Federal government’s total liability for Federal Benefit Payments under the Police Officers’
and Firefighters’, and Teachers’ Retirement Plans.

As estimated by the actuary, as of October 1, 2009, the Federal government’s total liability for
Federal Benefit Payments under the Police Officers’ and Firefighters’, and Teachers’
Retirement Plans is approximately $8.9 billion. Of the $8.9 billion actuarial liability,
approximately $3.7 billion is funded by assets in the D.C. Federal Pension Fund and $5.2
billion is unfunded.

EFI determined an actuarial total liability of $157.3 million for the Judges’ Retirement Plan as
of October 1, 2009. Of the $157.3 million actuarial liability, approximately $129.2 million is
funded by assets in the Judicial Retirement Fund and $28.1 million is unfunded.

h. Reconciliation Project

Title XI of the Balanced Budget Act of 1997, as amended, states that the interim benefits
period began on October 1, 1997, and ends on the date Treasury notifies the District that a
trustee or Treasury will assume the duties of benefits administrator. With respect to the
retirement plans for teachers, police officers, and firefighters, Treasury was not able to end the
interim benefits period until STAR was enhanced to calculate the split between federal and
District liability for post-June 30, 1997, retirees, their survivors, and certain reconciliation
activities are complete.

With the completion of the core functionality in STAR and ability to calculate the federal and
District share of benefits, the Office began work on the Reconciliation Project. The purpose of
the Reconciliation Project is to, among other things, perform an accounting and reconciliation
of the amounts related to federal and District liabilities for benefits paid during the interim
benefits period to plan members who retired after June 30, 1997.

In FY 2009, the Office’s began discussing the Reconciliation Project with the District and
DCRB and started planning for reconciliation activities and identifying data that may be
necessary to conduct the reconciliation. The long-term project will require Treasury, DCRB,
and the District to gain consensus on how to conduct the reconciliation. Per the current Interim
Benefits MOU between Treasury and the District, the primary goals for the reconciliation are
to calculate split benefit payments for plan members who retired during the interim benefits
period and to reconcile these payments with amounts actually paid by the District to Treasury
during the interim benefits period. The reconciliation will identify amounts potentially owed to
Treasury by the District and vice versa.



                                             22
2.   Future Focus

     a. Annual Cost Agreement with District of Columbia Retirement Board (DCRB)

     Every fiscal year, the Office and DCRB establish a Memorandum of Understanding for
     Payment of Administrative Expenses related to the Administration of Federal and District
     Benefit Payments and other Payments between Treasury and District of Columbia Retirement
     Board (―Cost Sharing MOU‖). The Cost Sharing MOU describes the methodology for
     reimbursement of costs associated with administering Federal benefits. The Cost Sharing MOU
     for FY 2010 was revised to include a new methodology that would more precisely capture the
     level of effort associated with processing Federal Benefit Payments. The Cost Sharing MOU
     also provides that DCRB will pay 100% of expenses related to administering District benefits,
     including STAR development costs associated with new District legislation.

     b. Debt Management

     During FY 2010, the Office will continue to collaborate with stakeholders to further enhance
     the debt management program. The primary goal is to improve the program by further
     clarifying roles and responsibilities for debt collection. These improvements include
     methodical procedures and accelerated processing of debt.

     c. Reconciliation Project and Ending the Interim District Benefits Period

     In FY 2010, the Office will work with DCRB and the District to reach an agreement regarding
     the methodologies, procedures, and timing for conducting reconciliation activities. Per the
     current Interim Benefits MOU between Treasury and the District, the primary goals for the
     reconciliation are to calculate split benefit payments for plan members who retired during the
     interim benefits period and to reconcile these payments with amounts actually paid by the
     District to Treasury during the interim benefits period. The reconciliation will identify amounts
     owed to Treasury by the District and vice-versa. Other financial transactions that occurred
     during the interim benefits period may also be included in the Reconciliation Project.

     In addition to working on the Reconciliation Project, the Office is evaluating activities required
     for ending the interim benefits period for the Teachers’, Police Officers’, and Firefighters
     Retirement Plans. As stated in the Balanced Budget Act of 1997, as amended, the interim
     benefits period began on October 1, 1997, and ends on the date Treasury notifies the District
     that Treasury or a trustee will assume the duties of benefits administrator.




                                                 23
C. Program is effectively managed and creates continuous improvement

1.   Program Results

     a. Organizational Structure

     With the completion of the development of the core System to Administer Retirement (STAR)
     functionality, the Office of D.C. Pensions (the Office) restructured its organization in early
     FY 2009 to effectively support operational oversight of its many service providers. The Office
     focused on monitoring the stability of operational areas and on implementing process and
     system improvements. During the year, the Office continued to communicate the
     organizational changes to staff and stakeholders while enhancing new organizational areas.

     b. Long-Term Strategic Planning

     During FY 2009, the Office engaged in multi-year planning intended to identify short-term
     priorities for FY 2010-2012 and to inform the long-term strategic planning process. This
     effort, which was the first step to the Office long-term strategic planning, involved multiple
     sessions with Office management and staff to develop key activities aimed at achieving
     specific priorities. The outcome of these planning sessions also supported the Office’s
     budgeting process.

     c. Service Level Agreements

     The Office has Service Level Agreements (SLAs) in place with the District of Columbia
     Retirement Board (DCRB) for benefit administration, Treasury’s Bureau of the Public Debt
     (BPD) for operations and maintenance of the STAR system, and Administrative Resource
     Center (ARC) for payroll operations. The SLAs define responsibilities, required services, and
     reporting requirements for service providers and the Office in providing high quality service to
     annuitants. In addition, the Office has established quality plans and conducts periodic reviews
     to ensure responsibilities are executed.

     d. Quality Program

     Benefits Administration

     As part of the Quality Program, quality plans were established to review benefit administration
     processes such as new annuitant calculations, including new retirees, survivors, and
     beneficiaries as well as Qualified Domestic Relation Orders (QDROs). The benefits
     administration quality program can be credited for the continued reduction in benefits
     processing errors. The monetary error rate identified in the Office’s review process in
     FY 2009 was 1.09%. The monetary error rate for FY 2008 was 2.00%. In addition, the Office
     continued to review data maintenance activities such as changes to annuitant’s personal data,
     bank information, health benefits, and life insurance.




                                                 24
As part of the quality program, the Office provided appropriate feedback to the benefits
administrator to ensure accuracy and assess training needs for the staff. Additional targeted
training was provided to analysts and customer service staff as needed to improve benefit
processing.

Payroll Processing

The Quality Program includes reviews of payroll processing functions. The program includes
reviews of preliminary and final payroll statistics, timely transmission of payment files, and
third party reporting. In FY 2009, no problems were noted during the review of these payroll
processing functions.

In addition, the Office began to meet with stakeholders monthly to review payroll reports
associated with split benefits. The reviews ensure that the split benefits are reported in a timely
and accurate manner.

System Administration

During FY 2009, the Office expanded its Quality Program to include system administration
activities. The new quality plans efficiently accounts for system availability and tracks the
number and types of open production trouble tickets and the time it takes to complete them.
This information is used by the Office to manage resources supporting the STAR system and to
track hosting and support performance.

e. Office of D.C. Pensions Program Performance Reporting

The results of the quality reviews are included in the Office’s FY 2009 Performance Reports.
The quarterly performance reports focus on each of the four primary performance areas:
benefits administration, financial management, information services, and program
management. The reports are a useful tool to monitor trends and ensure the primary
performance areas are effectively managed.

f. District of Columbia Retirement Board Performance Reporting

DCRB placed additional emphasis on quarterly performance reporting during FY 2009. DCRB
includes in their quarterly performance measures for pension and payroll processing. The
performance measures track the volume, timeliness, and quality of the pension and payroll
processing services as well as customer satisfaction. DCRB processed a higher volume of
transactions than in prior years. At the same time, the timeliness of the processing has
improved from previous years.

g. STAR End-User Forum

In FY 2009, the Office implemented a STAR end-user forum that is used as a platform for
DCRB, BPD, and ARC to present and discuss benefit administration program enhancement
ideas aimed at improving benefits processing and customer service. The forum has been



                                             25
successful at identifying process improvements, including system defaults, user-friendly data
sorts, and more efficient process flows. When implemented, these new system features will
streamline the process and reduce data entry, redundancy, and potential for errors.

h. Federal Benefit Payments Regulations

Split Benefit Regulations

In FY 2009, the Office made significant progress toward amending Part 29, Subpart C of Title
31 of the Code of Federal Regulations, Federal Benefit Payments Under Certain District of
Columbia Retirement Plans - Split Benefits (―Split Benefit Regulations‖). Pursuant to the
Balanced Budget Act of 1997, as amended (the Act), the Office has responsibility for payment
of benefits based on service accrued as of June 30, 1997, under the retirement plans for District
of Columbia teachers and police officers and firefighters.

Under the Act, some annuitants receive both Federal and District Benefit Payments as a portion
of their total retirement benefit based on service before or after June 30, 1997. Benefits
partially paid by Treasury and partially paid by the District of Columbia are referred to as split
benefits. The Split Benefit Regulations establish general principles that are applied to
determine the amount of service creditable for Federal Benefit Payments and include examples
in which the general principles are applied to a variety of benefit calculation scenarios.

Debt Regulations

The Office has been updating Part 29, Subpart E of Title 31 of the Code of Federal
Regulations, Federal Benefit Payments Under Certain District of Columbia Retirement Plans –
Debt Collection and Waivers of Collection (―Debt Regulations‖), which are specific to the
retirement plans for District of Columbia judges, teachers, and police officers and firefighters.
The amended regulations are expected to further clarify the debt management process.

i. Internal Control over Financial Reporting

The Office used the FY 2009 Guidance and Implementation Plan provided by Treasury’s
Office of the Deputy Chief Financial Officer to conduct a review of internal controls over
financial reporting as required by OMB Circular A-123, Management’s Responsibility for
Internal Controls, Appendix A, Internal Control Over Financial Reporting. BPD/ARC staff
members and the Office conducted internal control tests or relied on the BPD/ARC SAS 70
review.

The Office conducted its assessment of the effectiveness of internal controls over financial
reporting as of June 30, 2009, which included reviewing core financial processes and
compliance with applicable laws and regulations, in accordance with the requirements of
Appendix A of OMB Circular A-123. Based on the results of this evaluation, the Office
provided unqualified assurance that its internal controls over financial reporting were operating
effectively and no material weaknesses were found in the design or operation of the internal
controls over financial reporting. The scope of the assessment was limited to the Treasury-



                                            26
     designated material consolidated financial statement lines identified in Treasury’s guidance
     and internal financial reports produced for the Office. In addition, the Office had no material
     weaknesses in the design or operation of internal controls over financial reporting identified in
     FY 2008 that required corrective actions in FY 2009.

     j. Financial Statement Audit Opinion

     KPMG LLP (KPMG), an independent public accounting firm, rendered an unqualified opinion
     on the Office’s FY 2009 financial statements. This is the 11th consecutive year that the
     Office’s financial statements have received an unqualified opinion.

     KPMG noted no significant deficiencies or material weaknesses in the Office internal control
     over financial reporting. Also, the results of KPMG’s tests of compliance with laws and
     regulations disclosed no instances of noncompliance or other matters that require reporting
     under Government Auditing Standards or OMB Bulletin No. 07-04, Audit Requirements for
     Federal Financial Statements, as amended.

2.   Future Focus

     a. Long-Term Strategic Planning

     The Office plans to develop a long-term Strategic Plan during FY 2010. The Plan will provide
     the Office with guidance in instituting a flexible, stable, operational environment that positions
     the Office to proactively address future challenges. During the development of the Plan, the
     Office will review its vision, goals, and objectives to ensure that they support the identified
     future state.

     b.   Office of D.C. Pensions Program Performance Reporting

     The Office plans to enhance its existing performance reporting by creating a performance
     measurement and accountability program in FY 2010. The purpose of the program will be to
     enhance performance reporting and analysis and improve decision-making. The performance
     measures will be periodically reported and reviewed to ensure that Office strategic outcomes
     are continuously achieved.

     c.   STAR End-User Forum

     The Office received positive feedback on the newly established STAR end-user forum and will
     continue to meet periodically to identify areas for improvement. The forum provides users with
     an opportunity to discuss pension and payroll topics and recommend process improvement.
     During FY 2009, users recommended several potential improvements to STAR. Many of these
     recommendations have been approved and incorporated into a STAR Change Request (CR).
     The CR will be implemented in phases throughout FY 2010.




                                                  27

d. Federal Benefit Payments Regulations

Split Benefit Regulations

The Split Benefit Regulations were originally published in FY 2000, but the effective date was
delayed until after STAR was fully implemented. With the major development of STAR
completed, the Office is amending the Split Benefit Regulations to establish additional rules
and provide additional examples of benefit calculation scenarios. These proposed
amendments, which will be published in FY 2010, will be introduced to simplify calculations
and maintain consistency with the general principles established in the original regulations.

Debt Regulations

The Debt Regulations were originally published in FY 2001. The Office is in the process of
amending the Debt Regulations to streamline the debt management program to effectively
manage and expeditiously collect debt. The amended regulations will be published during
FY 2010 and are expected to further clarify the debt management process.




                                           28
IV. Five-Year History of the District of Columbia Pensions Program

   A. Annuitants (as of September 30, 2009)

                                    Police Officers’ and Firefighters’,
                                    and Teachers’ Retirement Plans

                     16
                                                                                 Police/Fire

                                                                                 Teachers

                     14
                          7,639   7,646       7,639      7,607       7,599
                     12


                     10
         Thousands




                      8
                                                                             Pension Population
                                                                               Year   Annuitants
                      6
                          5,827               5,852      5,896       6,023     2005    13,466
                                  5,805                                        2006    13,451
                                                                               2007    13,491
                      4                                                        2008    13,503
                                                                               2009    13,622
                      2


                      0
                          2005    2006        2007       2008         2009




                                          Judges’ Retirement Plan
                     80


                                                                     78
                                    77
                                               75         75
                            73
                     70




                     60
                           2005   2006        2007       2008       2009




                                               29 

B.          Investments (as of September 30, 2009)

                                                    D.C. Federal Pension Fund
                                                         Net Investments
            $4

                    3.762




                                    3.708




                                                                           3.703




                                                                                       3.710
                                                           3.701
                                                                                                  All funds are
            $3                                                                                    invested in non-
                                                                                                  marketable
                                                                                                  Government
                                                                                                  Account Series
 Billions




                                                                                                  (GAS) securities.
            $2



            $1



            $0
                    2005            2006                  2007             2008        2009




                                                    Judicial Retirement Fund

                                                        Net Investments

            $135

            $130
                                                                                          128.8




            $125

                                                                               124.8




                                                                                                    All funds are
            $120
                                                                                   invested in non-
                                                                   120.2




                                                                                                    marketable
 Millions




                                                                                                    Government
            $115                                                                                    Account Series
                                            113.9




                                                                                                    (GAS) securities.
            $110
                            107.4




            $105

            $100

             $95
                      2005           2006                   2007            2008       2009





                                                                   30 

B.                        Investments (as of September 30, 2009) continued


                                                               Investment Average Annual

                                                                     Rate of Return*

                          6%



                          5%
                                       4.7
                                                         4.5               4.4
                          4%                                                                                                              2005
         Rate of Return




                                                                                             4.2
                                                                                                               3.8                        2006
                          3%                                                                                                              2007
                                                                                                                                          2008
                          2%                                                                                                              2009


                          1%


                          0%
                                                          D.C. Federal Pension Fund

                   *The Rate of Return is calculated by dividing interest earned from Government Account Series (GAS) securities by the
                   average par value of investments in GAS securities. Interest earned from GAS securities includes the amortization of
                   premiums and discounts.




                                                                Investment Average Annual
                                                                      Rate of Return*
                          6%
                                        5.7             5.7              5.6
                          5%
                                                                                         5.1

                          4%                                                                                                          2005
 Rate of Return




                                                                                                         3.9
                                                                                                                                      2006
                          3%                                                                                                          2007
                                                                                                                                      2008
                          2%                                                                                                          2009


                          1%


                          0%
                                                        Judicial Retirement Fund

       *The Rate of Return is calculated by dividing interest earned from Government Account Series (GAS) securities by the
       average par value of investments in GAS securities. Interest earned from GAS securities includes the amortization of
       premiums and discounts.




                                                                             31
C. Payments by Category (as of September 30, 2009)


                               Federal Benefits, Refunds, and Administrative Expenses


            $600


            $500


            $400
                                                                                                   Federal Benefits
Millions




                                                                                                   & Refunds
            $300                                                                                   Administrative
                                                                                                   Expenses*
            $200


            $100


               $0
                        2005          2006          2007          2008          2009

    *Administrative  expenses include, but are not limited to, (a) expenses paid to the District for
    administration of Federal benefits, (b) expenses for ODCP salaries, and (c) expenses associated
    with contractor support. It does not include reimbursement from the District for STAR-related
    administrative expenses incurred by ODCP in support of District benefits.




                        Federal Benefits, Refunds, and Administrative Expenses


               Fiscal        Federal Benefits/     Administrative     Federal Benefits/     Administrative
               Year           Refunds Paid           Expenses*          Refunds %            Expenses %

               2005               $464M                $19.5M                96%                   4%


               2006               $494M                $18.4M                96%                   4%


               2007               $504M                $15.7M                97%                   3%


               2008               $506M                $18.4M                96%                   4%


               2009               $524M                $15.3M                97%                   3%



           *Administrative  expenses include, but are not limited to, (a) expenses paid to the District for
           administration of Federal benefits, (b) expenses for ODCP salaries, and (c) expenses associated
           with contractor support. It does not include reimbursement from the District for STAR-related
           administrative expenses incurred by ODCP in support of District benefits.




                                                           32
V.   Limitation of the Financial Statements

     The principal financial statements have been prepared to report the financial position and
     results of operations of the Office of D.C. Pensions (the Office), pursuant to the requirements
     of the 31 U.S.C. 3515(b).

     While the statements have been prepared from the books and records of the Office in
     accordance with U.S. generally accepted accounting principles for Federal entities and the
     formats prescribed by the Office of Management and Budget, the statements are in addition
     to the financial reports used to monitor and control budgetary resources which are prepared
     from the same books and records.

     The statements should be read with the realization that they are for a component of the
     U.S. Government, a sovereign entity.




                                               33
(This page left intentionally blank.)




                34
               PART 2
INDEPENDENT AUDITORS’
             REPORTS




    35
36
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                         Independent Auditors' Report




Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:



We have audited the accompanying comolidated balance sheets of the U.S. Department of the Treasury's
Office of D.C. Pensions (the ODCP) as of September 30, 2009 and 2008, and the related consolidated
statements of net cost,    changes in net            position, and combined statements of budgetary resources
(hereinafter referred to as "consolidated financial statements") for the years then ended. These consolidated
financial statements are the responsibility of the ODCP's management. Our responsibility is to express an
opinion on these consolidated financial statements based on our audits.


We conducted our audits in accordance \vith auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and petform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness o f
the ODCP's internal control over financial reporting. Accordingly, w e express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We believe
that our audits provide a reasonable basis for our opinion.


In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U ,So Department of the Treasury's Office of D.C. Pensions as o f
September 30, 2009 and 2008, and its net costs, changes in net position, and budgetary resources for the
years then ended in conformity lNith U.S. generally accepted accounting principles.


As discussed in Note 10, effective October 1, 2008, the ODCP changed its reporting of distributed
offsetting receipts in the statement of budgetary resources.


The information in the Management's Discussion and Analysis is not a required part of the consolidated
financial statements, but is supplementary information required by U.S. generally accepted accounting
principles. We have applied certain limited procedures, which consisted principally of inquiries o f
management regarding the methods of measurement and presentation o f this information. However, we did
not audit this information and, accordingly, we express no opinion on it.




                                   PoAGU-P ' " .",... 1Ilt     1_    1'.111
                                 "'''''... 'f'P"' '"t'1I'!'f   . ,So.,      _




                                                               37
Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The       September 30, 2009 and 2008          consolidating infonnation presented in the
Supplementary Schedules in Part 4 is presented for purposes of additional analysis of the consolidated
financial statements rather than to present the financial JXlSition, net costs, changes in net position, and
budgetary resources of the       ODCP's      two funds individually.    The   September 30, 2009 and 2008
Supplemenlary Schedules have been subjected to the auditing procedures applied in the audit of the
consolidated financial statements and, in our opinion, are fairly stated, in all material respects, in relation to
the consolidated financial statements taken as a whole.


In accordance with Govemmeni Auditing Standards, we have also issued our reports dated November 13,
2009, on our consideration of the ODCP's internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of   our   testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit perfonned in accord ance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 13, 2009




                                                    38

                                  0
                                  
	0 0 -),0 0
                                  * $-'%0 00




             2(*82(*2<D@(-<49;D          *74:<D 42D 2<+92!1D 52<941D *9D2"2'-!1D       +749?2,D




ÊUNÌªèUUª<è-è)èU¦DUÎèXè ÌkUè+9U1Â×Á	è 1Rè
uªUNÌª
è %_NUè Xèè(VÂqÂè



/Uè k1ÞUè HRqÌURèÑUè NÂqR1ÌURè J1~2NUè ÃkUUÌÂè XèÎkUè .)è U¥2ªÌUÌè XèÎkUè ,ªU1ÃÝÂè %`NUè Xè è
(VqÂè ÎkUè &(è 1Âè Xè )U¥ÌUIUªè  D 2Qè D >Rè ÌkUè ¬V~1ÌURè OÂqSFURè ÂÌ1ÌVUÌÂè Xè UÌè
                                                




N¤Ì
è Nk?iUÂè tè VÌè ¥ÂqÌqè 2Rè OLVQè r1ÌUVÌÂè Xè J×RhUÌ1ªæè ªUÂÙªOVÂè kU¯Uªè ªVXU½URè Îè 1Âè
OÂqRFURè Yw>Nq<è rFUUÌÅè Xªè ÌkVè åUCè ÎlUè URVS
è 2Rè k1ÞUè qÂÄ×URè ×ªè «U¥ªÌè ÑUªUè Q3ÌURè
$ÞUIU«è D 	D ,k1Ìè ªU¥ªÌè ªVXUªUNVQè Ìk1Ìè ÌkVè &(è Ok1hUQè qÌÂè ªU¥¿thè XèRqÂÌ²I×ÎVRè XgUÖhè
ªVOUq¥ÌÂèqèÌkUè ÂÌ1ÌVUÌè XèI×ShUÌ4¬åèªUÂ×«OUÂètè eO<è åU2«è D

/Uè NRØOÌURè ×ªè 1×SqÌÂè qè 1NNªR3NUè D1×SqÌtiè ÂÌ2RBSÂè hUåè 1NOU¥ÌURè qè ÌkUè .sÎURè )Ì1ÌVÃè Xè
UªqN1è ÑUè ÂÌ@Âè 1§qN1I~Uè Îè c2~è 1×SqÍÃè NÌ1qVRè qè "+%(,*,                      (    $&,
                                                                                                               qË×URè
Jæè ÌkUè ¥­~~V«è UUª3è Xè ÌkUè -qÌURè *1ÌUÂè >Qè &XYvNVè Xè !13hUUÎè 2RèØQhUÌè %"è ÚUÌtè
$èD*(, 	#*$(&, !$,$,,          (((&,
                                                                       1Äè 2URVQè ,kÂVè r2R2ªQÂè 2Rè %#è
Ø~~UÌtè $è
D ªU©×qªVè Ìk1Ìè CD ¥~1è >Rè ¥UªXè ÌkUè 1×SqÌÂè Îè IÌ7è ªU1Â6~Uè 1Â+NUè 1J×Ìè
álUÌkUªèÑUè NÂsS1ÌURèb2Nq2~èÃÎ1ÌUUÃè 0 fVVèXè1ÌV²<èzÃÌ1ÌUUÎè


,lUè 21iUUÌè Xè ÌkUè %(è qÂè ªVÃ¥ÂqJVè Xªè UÂÎ5KqÂoxiè 2Rè8Ì2qxiè UXXUNÌqßUèqÌUºèNÌªè è
¥2qhè >Rè ¥U°±hè Ùªè YvÂN3~è åU2ªè D  áUè O'qRUªVRè ÌkUè %(Âè uÌU·2~è OÌª~è ÞUªè
b2Nq<è «V¥ªÌqiè Iåè Mhè 3è ÙRUªÃÌ1Sqhè Xè ÌkUè QUÂqhè V\UNÌqÞUVÂÂè Xè ÎlUè &(Âè qÌW<è
NÌª~
è RVÌU¶hè ákUÌmVªè qÌU¸2~è N è k1Rè IUUè ¥4NURè tè ¥Uª1Ìq
è 1ÂÂUÂÉhè NÍ¬~è ªqÂ|	è 2Rè
¥VªXµqiè ÌUÂÌÂè Xè NÌªÃè 1Âè 1è I3ÆÂè Xªè QVÂqhqhè Ùªè 1×RuÒhè ¥ªOURÙªUÂè Xªè ÌkUè ¦ÂUè Xè Uã¥ªUÄÃthè
Ûè ¥tqè è ÌkVè NÂ~sQ4ÌURè YyNq<è ÄÎGUUÍÃè ,è 1NmqUÞUè ÌnsÃè ¥ÜÃV
è áUè SsQè Ìè ÌUÃÎè #$D qÌV¹<è
NÌª~Âè ªV~UÞ2Ìè Íè ¥U®è I{UOÎqÞUÂè 1Âè Jª1PåèQUYvURè Jåè ÌkUè $,$',,($),
, !, D ,kUè çUNÌqÞVè Xè Ùªè HRqÌè AD Ìè Ìè Vä¥ªUÂÂè >è ¥tqè è ÌkVèU]UNÌqßVUÂÂè XèÐUè &(Âè
qU»è OÌª~è ßVªè Yv2Os2~è ªU¥¬ÔhèOOªThæ	è áUè )D Ìè Uã¨UÂÂè 2è £qè è ÌkUè U^VNÌqÞUVÃÃè Xè
ÌlVè &(Âè tÌU¼è NÌªè ÞUªè b2Nq<è ªV¥ªÓiè


D NÂqQUª1Ìqè Xè qÌU¸<èN¡Ìª~è ÞUªè b2Nq2~è «U¥ªÌqiè á1Âè X«è ÌkUè tsÌURè ¥ÂUè RUÄOªqIURè.DÌkUè
¥«VNURthè ¥2ª1hªAkè 2RèBD Ìè RVÂqhURèÎè qRU[è #$D RVZvNqUNqVÃè tè ÌkUè uÌU¹2~è Oª~è ßUªè Yw1Nq<è
ªV¥ªÌqhè=DqhpèIUèRUZvOqUNqUÃ	è ÂqjqYvO2Ìè RUZvOsUNqUÂ	èªè1ÌU³2~è áU:UÂÂUÂè


D RUYvNqVNåè tè uÌU»è Oª~è UãqÂÌÂè ákUè ÌkVè RUÂqhè ªè ¥V¬1Ìqè Xè 1è N¢~è RVÃè Ìè =áè
>1hUVÌè ªè U¦~åUUÃ	è qè ÌkUè ´2~è OÙªÂUè Xè ¥UªXqhè ÌkVtªè 1ÂÂthURè aOÒÂ
è Ìè ¥ªUÞU	è ªè
RVÍUNÌè %D NªªUOÎè qÂÂÌFUUÌÂè è 1è ÌuU~åè I3ÈÂè D ÃqjqYvN?Ìè RUYvOsUNåè zè 1è RUZvOsUNå
è             (0   1è
NIq1Ìsè Xè RUZvNqUNqVÃ	è tè tÏè N~è Ìk1Ìè 0D ~UÂÂè ÄVÞUªUè Ìk>è 1è 1ÍV²<è áU1}UÂÂ
è æVÌè t¥¬Î?Ìè
UÙhkè Ìè UªqÌè 3ÎÌUqè Iåè ÌkÃVè Nk2ªhVQè 0qÌkè iÞU¹2OUè D 1ÌU²<è áU9UÄÃè qÂè 1è RVYvNqUNæ	è ªè
NIq1Ìsè Xè RVYvNqUNqVÃè tè /D N¢~
è Â×Okè Ìk1Ìè ÌlUªUè qÂè 1è ªU1Â1J~Uè ¥ÂÇIqqÌåè>D 1è 1ÌVªq<è
sÂr1ÌUVÌè Xè ÑUè UqÌæÂè Yv2Oq<è ÂÌ1ÌVUÌÂè â~è Ìè &D ¥ªUÞVUS
è ªè RUÌUNÌUQè 2Rè N¾NÌURè è 1è
ÌqU~åèIEÂè


D ×ªè eO1~è åUBè D HRqÌ
è áVè RqRè 36<D qRUÕè 2åè QVYvNqUNsVÂè qè qU¹<è O Ìª~è ßVªè Yw1Oq<è
ªV¥ªÌqhè=DáUè OÂqRUªèÎè IUè ÀUªq1~è áV;UÂÂUÃ	è1ÂèRUdRè 1IàVè




                                                          39

We noted certain additional matters that we have reported to management of the ODCP in a separate letter
dated November 13, 2009.


This report is intended solely for the information and use of the ODCP's management, the u.s.
Department of the Treasury's Office of Inspector General, OMB, the u.s. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 13, 2009




                                                40

                                KPMG LLP
                                2001 M Street. NW
                               Washington. DC 20036




                     Independent Auditors' Report on Compliance and Other Matters




Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:



We have audited the consolidated balance sheets of the U.S. Department of the Treasury's Office of D.C.
Pensions (the ODCP) as of September 30, 2009 and 2008, and the related consolidated statements of net
cost, changes in net position, and combined statements of budgetary resources (hereinafter referred to as
"consolidated financial statements") for the years then ended, and have issued our report thereon dated
November 13, 2009. That report referenced that the ODCP changed its reporting of distributed offSetting
receipts in the statement of budgetary resources in fiscal year 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit RequirementsJor Federal FinaJlcial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perfonn the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the ODCP is responsible for complying with laws, regulations, and contracts
applicable   to the ODCP. As part of obtaining reasonable assurance about whether the ODCP's
consolidated financial statements are free of material misstatement, we perfonned tests of the ODCP's
compliance with certain provisions of laws, regulations, and contracts, noncompliance with which could
have a direct and material effect on the determination of the consolidated financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests
of compliance to the provisions described in the preceding sentence, and we did not test compliance with
all laws, regulations, and contracts applicable to the ODCP. However, providing an opinion on compliance
with those provisions was not an oQjective of our audit, and accordingly, we do not express such an
opinion.

The results of our tests of compliance described in the preceding paragraph, disclosed no instances of
noncompliance or other matters that are required to be reported herein lIDder Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the infonnation and use of the ODCP's management, the U.S.
Department of the Treasury's Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 13, 2009




                                                           .
                                                            .




                                                    41

(This page left intentionally blank.)




              42
              PART 3 

FINANCIAL STATEMENTS
           AND NOTES




   43
44
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Balance Sheets
As of September 30, 2009 and September 30, 2008
(in thousands)

                                                                                 2009              2008

Assets
     Entity Assets
          Intra-Governmental Assets
               Fund Balance with Treasury (Note 3)                           $         250     $         317
               Investments in GAS Securities, Net (Note 4)                       3,839,297         3,827,309
               Interest Receivable from GAS Securities                              27,035            31,506
               Advances to Others                                                       78                73
          Accounts Receivable, Net                                                   6,807             6,832
          ADP Software, Net (Note 5)                                                 5,557             8,505
          Equipment, Net (Note 6)                                                        -                17
Total Assets                                                                 $   3,879,024     $   3,874,559

Liabilities
     Liabilities Covered By Budgetary Resources
            Intra-Governmental
                 Accounts Payable                                            $         469     $          46
                 Accrued Payroll and Benefits                                           28                23
            Accounts Payable                                                         5,348             3,822
            Accrued Pension Benefits Payable                                        48,438            48,711
            Actuarial Pension Liability (Note 2i)                                3,680,250         3,683,632
            Accrued Payroll and Benefits                                               302               246
     Total Liabilities Covered By Budgetary Resources                            3,734,835         3,736,480

     Liabilities Not Covered By Budgetary Resources
          Actuarial Pension Liability                                            5,368,844         5,119,756
Total Liabilities                                                                9,103,679         8,856,236

Net Position
     Cumulative Results of Operations - Earmarked                                (5,224,655)       (4,981,677)
Total Net Position                                                               (5,224,655)       (4,981,677)

Total Liabilities and Net Position                                           $   3,879,024     $   3,874,559

The accompanying notes are an integral part of these financial statements.




                                                          45 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Net Cost
For the Years Ended September 30, 2009 and September 30, 2008
(in thousands)

                                                                             2009            2008

Program Costs (Note 7)
    Administrative Expenses (Note 8)                                  $        15,432    $     18,414
    Pension Expense (Note 9)                                                  769,461         319,660
Total Program Costs                                                           784,893         338,074

Less: Earned Revenues (Note 7)
    Interest Earned                                                            133,796        150,025
    Employee Contributions                                                         613            597
Net Cost of Operations                                                $        650,484   $    187,452

The accompanying notes are an integral part of these financial statements.




                                                    46 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2009 and September 30, 2008
(in thousands)

                                                                                    2009            2008
                                                                                 Earmarked       Earmarked

Cumulative Results of Operations

      Net Position - Beginning of Year                                       $     (4,981,677)     (5,141,514)

      Budgetary Financing Sources
         Appropriations Used                                                         407,380         347,180

      Other Financing Sources
          Imputed Financing Sources                                                      126             109

      Total Financing Sources                                                        407,506         347,289

      Net Cost of Operations                                                         (650,484)       (187,452)

      Net Change                                                                    (242,978)        159,837

      Net Position - End of Year                                             $     (5,224,655)     (4,981,677)

The accompanying notes are an integral part of these financial statements.




                                                        47 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combined Statements of Budgetary Resources
For the Years Ended September 30, 2009 and September 30, 2008
(in thousands)

                                                                             2009            2008

Budgetary Resources
Unobligated Balance - brought forward                               $             -      $         76
Recoveries of Prior Year Unpaid Obligations                                     1,927           2,334
Budget Authority:
   Appropriations                                                             946,803         846,433
   Spending Authority from Offsetting Collections:
      Earned:
       Collected                                                                5,591          35,216
Temporarily Unavailable Pursuant to Public Law                                 (3,945)         (4,145)
Total Budgetary Resources                                           $         950,376    $    879,914

Status of Budgetary Resources
Obligations Incurred:
   Direct                                                           $         950,376    $    879,914
Unobligated Balance:
   Exempt from Apportionment                                                        -               -
Total Status of Budgetary Resources                                 $         950,376    $    879,914

Change in Obligated Balance
   Unpaid obligations brought forward, Oct. 1                       $          59,900    $     59,082
Obligations Incurred                                                          950,376         879,914
Gross outlays                                                                (947,311)       (876,762)
Recoveries of Prior Year Unpaid Obligations, Actual                            (1,927)         (2,334)
Unpaid Obligated Balance, Net, End of Period:                                  61,038          59,900

Net Outlays
   Gross Outlays                                                    $         947,311    $    876,762
   Offsetting collections                                                      (5,591)        (35,216)
   Distributed offsetting receipts (Note 10)                                 (531,142)       (147,325)
Net Outlays                                                         $         410,578    $    694,221

The accompanying notes are an integral part of these financial statements.




                                              48 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Notes to Financial Statements
September 30, 2009 and September 30, 2008


1) Reporting Entity
   Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the Act), the
   Secretary of the Treasury (the Secretary) assumed certain responsibilities for a specific
   population of annuitants under the following District of Columbia (District) retirement plans:
   the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’ Retirement Plan and the
   Judges’ Retirement Plan. Specifically, the Secretary is responsible for administering the
   retirement benefits earned by District teachers, police officers and firefighters based upon
   service accrued prior to July 1, 1997, and retirement benefits earned by District judges,
   regardless of when service accrued.

   The Secretary’s responsibilities include: (1) making accurate and timely benefit payments;
   (2) investing fund assets; and (3) funding pension benefits. To carry out these
   responsibilities, Treasury’s Office of D.C. Pensions (the Office) engages in a wide range of
   legal, policy and operational activities in the areas of benefits administration, information
   technology, financial management and administration. The Office coordinates with many
   District entities and stakeholders to administer its responsibilities.

   The Office reports to the Deputy Assistant Secretary for Human Resources and Chief Human
   Capital Officer (DASHR). The DASHR reports to the Assistant Secretary for Management
   and Chief Financial Officer (ASM/CFO). ASM/CFO reports through the Deputy Secretary
   to the Secretary of the Treasury.

   a. District of Columbia Teachers, Police Officers, and Firefighters Federal Pension Fund
   Pursuant to the District of Columbia Retirement Protection Improvement Act of 2004, Public
   Law 108-489, Treasury established the District of Columbia Teachers, Police Officers, and
   Firefighters Federal Pension Fund (the D.C. Federal Pension Fund – 20X5511). Effective
   October 1, 2004, the assets and liabilities of the District of Columbia Federal Pension
   Liability Trust Fund (the Trust Fund - 20X8230) and the Federal Supplemental District of
   Columbia Pension Fund (the Supplemental Fund – 20X5500) were transferred to the
   D.C. Federal Pension Fund. The D.C. Federal Pension Fund is used for the accumulation of
   funds to finance obligations of the Federal government for benefits and necessary
   administrative expenses for the Police Officers’ and Firefighters’, and Teachers’ Retirement
   Plans under the provisions of the Act. The D.C. Federal Pension Fund consists of the
   following:
      Amounts deposited from the proceeds of assets transferred from the Trust Fund and the
       Supplemental Fund, which included the proceeds of assets transferred to Treasury from
       the District of Columbia Retirement Board (DCRB) pursuant to the Act;



                                           49
   Amounts deposited from the General Fund of the Treasury;
   Income earned on the investments held in the D.C. Federal Pension Fund; and
   Reimbursement from the D.C. government for the District’s actual share of benefits paid
    from the D.C. Federal Pension Fund.

The portion of the D.C. Federal Pension Fund that is not needed to meet the level of current
Federal benefit payments, refunds, and net administrative expenses is invested in non-
marketable Government Account Series (GAS) securities issued by the Treasury’s Bureau of
the Public Debt (BPD). Investments are made in securities with maturities suitable to the
needs of the D.C. Federal Pension Fund.
By the end of each fiscal year, the Act requires the Secretary to pay into the D.C. Federal
Pension Fund (from the General Fund of the Treasury) an annual amortization amount and,
beginning in FY 2009, the covered administrative expenses for the year. The annual
amortization amount, as determined by an enrolled actuary, is the amount necessary to
amortize the original unfunded liabilities of the retirement programs assumed by the Federal
government over 30 years, the net experience gains or losses over 10 years, and any other
changes in actuarial liability over 20 years. The amounts paid into the D.C. Federal Pension
Fund during FY 2009 and FY 2008 were $400.3 million and $340.2 million, respectively.

b. District of Columbia Judicial Retirement and Survivors Annuity Fund

Pursuant to the Act, Treasury established the District of Columbia Judicial Retirement and
Survivors Annuity Fund (the Judicial Retirement Fund – 20X8212).
The Judicial Retirement Fund is used for the accumulation of funds to finance obligations of
the Federal government for benefits and necessary administrative expenses of the Judges’
Plan under the provisions of the Act.
The Judicial Retirement Fund consists of the following:
   Amounts deposited from the proceeds of assets transferred to Treasury from the District
    of Columbia Retirement Board (DCRB) pursuant to the Act;

   Amounts deposited from the General Fund of the Treasury;
   Income earned on the investments held in the Judicial Retirement Fund; and
   Employee contributions to the Judicial Retirement Fund.
The portion of the Fund that is not needed to meet the level of current benefit payments,
refunds and net administrative expenses is invested in GAS securities. Investments are made
in securities with maturities suitable to the needs of the Judicial Retirement Fund.
By the end of each fiscal year, the Act requires the Secretary to pay into the Judicial
Retirement Fund (from the General Fund of the Treasury) an amount equal to the normal cost
for the year, an annual amortization amount and the covered administrative expenses for the
year. The annual amortization amount, as determined by an enrolled actuary, is the amount
necessary to amortize the original unfunded liability of the retirement program assumed by


                                       50
   the Federal government over 30 years, the net experience gains or losses over 10 years, and
   any other changes in actuarial liability over 20 years. The annual payment to the Judicial
   Retirement Fund also includes an amount necessary to fund the normal cost of the retirement
   program not covered by employee contributions. The amounts paid into the Judicial
   Retirement Fund during FY 2009 and FY 2008 were $7.0 million and $7.0 million,
   respectively.

2) Summary of Significant Accounting Policies
   a. Basis of Accounting and Presentation
   The Office’s financial statements consist of the Consolidated Balance Sheets, the
   Consolidated Statements of Net Cost and the Consolidated Statements of Changes in Net
   Position, and the Combined Statements of Budgetary Resources, all of which are prescribed
   by Office of Management and Budget (OMB) Circular A-136, Financial Reporting
   Requirements. The financial statements have been prepared from the accounting records of
   the Office in conformity with accounting principles generally accepted in the United States
   of America. Accounting principles generally accepted in the United States of America for
   federal entities are prescribed by the Federal Accounting Standards Advisory Board
   (FASAB), which is designated as the official accounting standards setting body of the
   Federal government by the American Institute of Certified Public Accountants. The
   statements are different from the financial reports, also prepared by the Office, pursuant to
   OMB directives that are used to monitor and control the Office’s use of budgetary resources.
   These financial statements present the consolidated activities and balances of the
   D.C. Federal Pension Fund and the Judicial Retirement Fund. There were no transactions
   between the Funds that require elimination during consolidation.

   b. Fund Balance with Treasury
   Fund balance with Treasury represents appropriated funds remaining as of fiscal year end
   from which the Office is authorized to make expenditures and pay liabilities resulting from
   operational activity, except as restricted by law.

   c. Investments
   Pursuant to the Act and Section 130 of Division A of Public Law 105-277 (1998), the
   Secretary invests the assets of the D.C. Federal Pension Fund and the Judicial Retirement
   Fund in GAS, market-based (―MK‖) securities — special non-marketable Treasury securities
   that mirror the prices of marketable securities with similar terms, issued and redeemed by
   BPD. The Office follows Treasury's investment policy guidelines and determines whether
   the investments should be made in MK bills, MK notes, or MK bonds. The maturities on
   investments range from less than one year to approximately ten years.
   Amounts that are not necessary to meet current obligations are invested in MK securities.
   Amounts needed to meet current obligations are invested overnight in one-day MK
   securities, which are redeemed at face value plus accrued interest. If amounts held in cash,
   overnight securities and maturing securities are inadequate to meet required outlays,
   investments would be selected for redemption based on a review of the advantages of each of




                                           51
the alternatives and an assessment of the appropriateness of the securities in the portfolio
under current investment policy.

Investments are valued at cost, adjusted for unamortized premiums and discounts, if
applicable. The premiums and discounts are recognized as adjustments to interest income,
utilizing the effective interest method.

d. Advances to Others
The carrying amount of advances and prepayments to the Department of the Treasury’s
Working Capital Fund approximate fair value as they represent the amounts expected to be
paid for certain common administrative services such as telecommunications and information
technology services.

e. ADP Software, Net
ADP Software, Net represents the pension benefit and payroll software purchased and
independent contractor costs incurred in FY 2000 – FY 2008 to develop a pension/payroll
system to meet Treasury’s and D.C.’s needs (net of accumulated amortization).
Internal use software is recorded at cost and capitalized in accordance with the following
thresholds:

   Capitalize software acquisitions that exceed $50,000
   Capitalize bulk purchases (a single purchase of like items in the same lot with a unit cost
    greater than $5,000 and less than $50,000) that exceed $500,000
   Capitalize aggregate purchases (multiple purchases of items directly related to a specific
    project and unit cost is less than $50,000) that exceed $500,000
Software is amortized using the straight-line method over an estimated useful life of five
years, with six months amortization taken in the first and last year.

f. Equipment, Net
Equipment, Net represents computer hardware purchases (net of accumulated depreciation)
placed in service and used to run ADP Software and operation of the pension/payroll system.
Equipment is recorded at cost and capitalized in accordance with the following thresholds:

   Capitalize equipment acquisitions that exceed $50,000

   Capitalize bulk purchases (a single purchase of like items in the same lot with a unit cost
    greater than $5,000 and less than $50,000) that exceed $500,000

   Capitalize aggregate purchases (multiple purchases of items directly related to a specific
    project and unit cost is less than $50,000) that exceed $500,000
Equipment is depreciated using the straight-line method over an estimated useful life of five
years, with six months depreciation taken in the first and last year.



                                         52
g. Accounts Receivable
Accounts receivable consist primarily of: (a) the amount due from the D.C. government for
the District’s share of benefits paid by the Office to which the recipients became entitled
during the reporting period, but which, by law, are paid on the first business day of the
subsequent period; (b) amounts due from the D.C. government for the District’s estimated
share of refunds paid by the Office in prior years; (c) employee retirement contributions
withheld from judges’ salaries not yet transferred from the General Services Administration
to the Judicial Retirement Fund before the end of each fiscal year; and (d) amounts due from
annuitants and survivors as the result of benefit overpayments.

h. Accrued Pension Benefits Payable
Accrued pension benefits payable pertains, for the most part, to retirement benefits to which
the recipients became entitled during the reporting period, but which, by law, are paid on the
first business day of the subsequent period. This accrual may also include amounts for
refund claims for which processing was not completed during the reporting period, but will
be paid in the subsequent period.

i. Actuarial Pension Liability
The actuarial cost method used to determine costs for the Police Officers’ and Firefighters’
Retirement Plan, Teachers’ Retirement Plan, and Judges’ Retirement Plan is the Aggregate
Entry Age Normal Cost Method. Under this funding method, the normal cost is a level
percent of covered salary, which, along with the member contributions (under the Judges’
Plan only), will pay for projected benefits at retirement for the active plan participants. The
level percent developed is called the normal cost rate and the product of that rate and payroll
is the normal cost.
The actuarial accrued liability is that portion of the present value of projected benefits that
will not be paid by future normal costs or member contributions. The difference between this
liability and the funds accumulated at the same date is referred to as the unfunded actuarial
pension liability. The actuarial pension liability is based upon assumptions made by
Treasury. The assumptions used to calculate the pension liability as of October 1, 2009, were
an annual rate of investment return of 5.2% in FY 2010 based on the securities held in the
Judicial Retirement Fund, gradually increasing to 6% by FY 2017; an annual rate of
investment of 4.5% in FY 2010 based on securities held in the D.C. Federal Pension Fund,
gradually increasing to 6% by FY 2016; an annual inflation and cost-of-living adjustment of
3.5%; and salary increases at an annual rate of 3.5% for judges, 5.5% for teachers, and 6.5%
for police officers and firefighters. The assumptions used to calculate the pension liability as
of October 1, 2008, were an annual rate of investment return of 5.2% in FY 2009 based on
the securities held in the Judicial Retirement Fund, gradually increasing to 6% by FY 2015;
an annual rate of investment of 4.7% in FY 2009 based on securities held in the D.C. Federal
Pension Fund, gradually increasing to 6% by FY 2014; an annual inflation and cost-of-living
adjustment of 3.5%; and salary increases at an annual rate of 3.5% for judges, 5.5% for
teachers, and 6.5% for police officers and firefighters.




                                         53
j. Appropriations Received and Used
Treasury is required to make annual payments from the General Fund of the Treasury to the
Judicial Retirement Fund and the D.C. Federal Pension Fund to amortize the original
unfunded liabilities assumed by the Federal government and any subsequent changes in
liabilities over a period of time and to fund the normal cost and necessary administrative
expenses of the Funds. The appropriations are received into the Office’s appropriation funds
and are paid out to the Judicial Retirement Fund and the D.C. Federal Pension Fund to be
invested in non-marketable GAS securities. In accordance with Statement of Federal
Financial Accounting Standards (SFFAS) No. 7, Accounting for Revenue and Other
Financing Sources, the payment from the Office’s appropriation funds results in an
appropriation used, as reported in the accompanying Consolidated Statements of Changes in
Net Position. Appropriations received and used for the years ended September 30, 2009 and
2008 were $407.4 million and $347.2 million, respectively.

k. Treasury Employee Retirement Plans
The D.C. Federal Pension Fund and Judicial Retirement Fund pay salaries and benefits of
Treasury employees who work in the Office as reasonable and necessary expenses incurred
in carrying out the Secretary’s responsibilities under the Act. These salaries and benefits are
split 90% and 10% between the D.C. Federal Pension Fund and the Judicial Retirement
Fund, respectively.
The Office’s employees participate in the Civil Service Retirement System (CSRS) or the
Federal Employees Retirement System (FERS). FERS was established by Public
Law 99-335. Pursuant to this law, FERS and Social Security automatically cover most
employees hired after December 31, 1983. Employees hired before January 1, 1984, elected
to either transfer to FERS or remain in CSRS.
All employees are eligible to contribute to the Thrift Savings Plan (TSP). For employees
participating in FERS, TSP accounts are automatically established and the D.C. Federal
Pension Fund and the Judicial Retirement Fund make mandatory contributions of one percent
of the Treasury employees’ base pay to the accounts. In addition, the Funds make matching
contributions, ranging from 1% to 4% of base pay, for FERS eligible employees who
contribute to their TSP accounts. Pursuant to law, mandatory and matching contributions are
not made to the TSP accounts established for CSRS employees.
FERS employees and certain CSRS reinstatement employees participate in the Social
Security program. The D.C. Federal Pension Fund and Judicial Retirement Fund remit the
employer’s share of the required contributions for eligible employees.
The D.C. Federal Pension Fund and Judicial Retirement Fund do not report information
pertaining to the CSRS and FERS retirement plans covering Treasury employees. The
U.S. Office of Personnel Management is responsible for reporting amounts such as plan
assets, accumulated plan benefits, and related unfunded liabilities, if any.




                                         54
l. President’s Budget
The Budget of the United States (also known as the President's Budget), with actual numbers
for FY 2009, was not published at the time that these financial statements were issued.
The President's Budget for FY 2011, which includes the Office’s budget within the Other
Independent Agencies’ budget appendix, is expected to be published in January or
February 2010. It will be available from the United States Government Printing Office.
The FY 2008 Statement of Budgetary Resources (SBR) was reconciled to the Program and
Financing (P&F) Schedules within the President’s Budget for FY 2010 and there were no
differences for budgetary resources, status of budgetary resources, and net outlays.
Earnings on investments in U.S. securities, federal (as reported in the annual President’s
Budget) consists of interest collected from GAS securities less premiums and interest
purchased. Interest earned from GAS Securities (as reported in the financial statements)
consists of interest earned from GAS securities and the amortization of premiums and
discounts.

m. Earmarked Funds

Funding Sources

All proceeds received and deposited by the Office are earmarked for the purpose of providing
annuity payments for retired District of Columbia teachers, police officers and firefighters for
services earned prior to July 1, 1997, and for retirement benefits earned by District of
Columbia judges, regardless of when services were earned.
Funding for the Judicial Retirement Fund is authorized by 111 Stat. 757, Sec. 11251,
Public Law 105-33 as amended by 112 Stat. 2681-534, Sec. 804(a)(4), Public Law 105-277.

Funding for the D.C. Federal Pension Fund is authorized by 118 Stat. 3967, Sec. 11084,
Public Law 108-489. Sources of revenue or other financing sources for the years ended
September 30, 2009, and 2008 were annual appropriations, employee contributions, and
interest earnings from investments.

Intra-governmental Investments in Treasury Securities

The Federal government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash receipts collected from the public for an
earmarked fund are deposited in the U.S. Treasury, which uses the cash for general
Government purposes. Treasury securities are issued to the Office as evidence of its receipts.
Treasury securities are an asset of the Office and a liability to the U.S. Treasury. Since the
Office and the U.S. Treasury are both parts of the Federal government, these assets and
liabilities offset each other from the standpoint of the U.S. Treasury and the Federal
government as a whole. For this reason, they do not represent an asset or a liability in the
U.S. Government-wide financial statements.




                                         55
   Treasury securities provide the Office with authority to draw upon the U.S. Treasury to make
   future benefit payments or other expenditures. When the Office requires redemption of these
   securities to make expenditures, the Federal government finances those expenditures out of
   accumulated cash balances, by raising taxes or other receipts, by borrowing from the public
   or repaying less debt, or by curtailing other expenditures. This is the same way that the
   Federal government finances all other expenditures.


3) Fund Balance with Treasury
   Fund balance with Treasury and the status of Fund balance with Treasury as of

   September 30, 2009 and 2008, consisted of the following (in thousands): 



                                                                       2009                  2008
     Fund balances:
       Trust fund                                             $             13       $           15
       Special fund *                                                      237                  302
     Total fund balance with Treasury                         $            250       $          317
     * OMB Circular A-11 defines special funds as a Federal fund account for receipts

       earmarked for specific purposes and the expenditure of these receipts.





                                                                       2009                  2008
    Status of fund balance with Treasury
      Obligated balance not yet disbursed                      $            250          $      317
    Total                                                      $            250          $      317




                                                  56 

4) Investments in GAS Securities - Net
   Investments in GAS securities – net as of September 30, 2009 and 2008 consisted of the
   following (in thousands):

                                                                        2009

                                                         Unamortized
                                                          Premium,         Investments       Market
                                           Cost              Net               Net           Value
     Intragovernmental Securities
        Non-marketable par value      $     312,333                —          312,333           312,333
        Non-marketable market-based       3,444,181            82,783       3,526,964         3,705,035

                  Total               $   3,756,514            82,783       3,839,297         4,017,368



                                                                          2008

                                                           Unamortized
                                                            Premium,           Investments    Market
                                             Cost              Net                 Net        Value
   Intragovernmental Securities
     Non-marketable par value         $      180,218                —              180,218     180,218
     Non-marketable market-based           3,581,041             66,050          3,647,091   3,785,037
                 Total                $    3,761,259             66,050          3,827,309   3,965,255



   The amortization method utilized by the Office is the effective interest method. The market
   value for notes and bonds is calculated using rates for September 30, 2009 and 2008, as
   published in the Treasury Quote Sheets prepared by Treasury’s Office of Market Finance.
   Included in this figure are a net unrealized gain of $178.1 million as of September 30, 2009,
   and a net unrealized gain of $137.9 million as of September 30, 2008.

   The amortized cost of non-marketable market-based GAS securities as of
   September 30, 2009 and 2008, by maturity date, are as follows (in thousands):

                                                                        2009                   2008
    Less than or equal to 1 year                           $            576,676          $     727,628
    More than 1 year and less than
      or equal to 5 years                                           2,215,931                2,172,016
    More than 5 years and less than
      or equal to 10 years                                              734,357                747,447
                   Total                                   $        3,526,964            $   3,647,091




                                                  57 

5) ADP Software, Net
   The components of ADP software, net as of September 30, 2009 and 2008 are as follows
   (in thousands):
                                                        2009               2008
     ADP software                               $        40,073      $      40,073
     Accumulated amortization                           (34,516)           (31,568)
     ADP software, net                          $         5,557      $       8,505



6) Equipment, Net
   The components of equipment, net as of September 30, 2009 and 2008 are as follows
   (in thousands):
                                                        2009              2008
     ADP hardware                                   $       500      $        500
     Accumulated depreciation                              (500)             (483)
     Equipment, net                                 $          —     $           17


7) Intra-governmental Costs and Exchange Revenue


   Intra-governmental Costs and Exchange Revenue for the years ended September 30, 2009,
   and 2008 are as follows (in thousands):

                                                        2009              2008
    Program Costs
      Intragovernmental Costs                   $           4,549 $           4,004
      Public Costs                                        780,344           334,070
         Total Program Costs                              784,893           338,074
    Program Revenue
      Intragovernmental Earned Revenue                   (133,796)         (150,025)
      Public Earned Revenue                                  (613)             (597)
         Total Program Revenue                           (134,409)         (150,622)

        Net Program Cost                        $         650,484 $         187,452




                                         58 

8) Administrative Expenses

   Administrative expenses for the years ended September 30, 2009 and 2008 are as follows
   (in thousands):

                                                         2009           2008
   Intragovernmental Expenses

      Salaries and Related Benefits                $         661 $          560

      Contractual Services                                 3,404          2,636

      Rent                                                   465            789

      Noncapitalized Equipment/Software                      -                2

      Other                                                    19            17

        Total intragovernmental expenses                   4,549          4,004

   Public Expenses

     Salaries and Related Benefits                         2,448          2,105

     Contractual Services                                  5,447          6,964

     Noncapitalized Equipment/Software                       -                3

     Amortization/Depreciation                             2,965          5,313

     Other                                                     23            25

        Total public expenses                             10,883         14,410


        Total administrative expenses              $      15,432 $       18,414


   Included in the administrative expenses are amounts incurred by the D.C. Federal Pension
   Fund and Judicial Retirement Fund for intra-governmental activity totaling $4,051 thousand
   and $498 thousand, respectively, for 2009, and $3,575 thousand and $429 thousand,
   respectively, for 2008.




                                           59 

9) Pension Expense
   Pension expense for the plan years ended September 30, 2009 and 2008, includes the
   following components (in thousands):

                                                               2009                 2008

   Normal Cost                                           $       4,223       $        4,200
   Actuarial (Gains) Losses During the Period                  360,711              (99,240)
   Interest on Pension Liability During the Period             404,527              414,700
   Total Pension Expense                                 $     769,461       $      319,660

   Federal Benefit Payments
   Federal pension benefits paid during the plan years were $516 million and $8.0 million from
   the D.C. Federal Pension Fund and Judicial Retirement Fund, respectively, for FY 2009, and
   $498.6 million and $7.2 million, respectively, for FY 2008. For FY 2009, approximately
   $0.6 million represents contribution refunds to plan participants of the D.C. Federal Pension
   Fund. For 2008, approximately $0.6 million represents contribution refunds to plan
   participants of the D.C. Federal Pension Fund. No contribution refunds were made to plan
   participants of the Judicial Retirement Fund during FY 2009 or FY 2008.

   In FY 2009, there was an actuarial loss in the D.C. Federal Pension Fund and an actuarial
   gain in the Judicial Retirement Fund due to changes in demographic assumptions, in
   particular, improved mortality rates for police officers, firefighters, and teachers. The loss in
   the D.C. Federal Pension Fund was partially offset by a gain due to plan experience, but the
   net result was a total actuarial loss in the two funds of $360.7 million. In FY 2008, there was
   an actuarial loss in each of the funds due to lowering the investment rate assumption. There
   was an actuarial gain in the D.C. Federal Pension Fund and an actuarial loss in the Judicial
   Retirement Fund due to plan experience. The net result was a total actuarial gain in the two
   funds of $99.2 million.




                                            60
10) Reconciliation of Net Cost of Operations to Budget
   The Reconciliation of Net Cost of Operations to Budget explains the difference between the
   budgetary net obligations and the proprietary net cost of operations. As of
   September 30, 2009, and 2008, the Reconciliation of Net Cost of Operations to Budget
   consisted of the following (in thousands):


                                                                                             2009            2008
    Budgetary Resources Obligated
        Obligations Incurred                                                             $    950,376    $   879,914
        Less: Spending Authority from Offsetting Collections and Adjustments                    7,519         37,550
        Obligations Net of Offsetting Collections and Recoveries                              942,857        842,364
        Less: Offsetting Receipts                                                             531,142        147,325
        Net Obligations                                                                       411,715        695,039
        Imputed Financing from Costs Absorbed by Others                                           126            109
        Total Resources Used to Finance Activities                                            411,841        695,148
    Resources Used to Finance Items Not Part of the Net Cost of Operations
        Change in Budgetary Resources Obligated for Goods, Services and
          Benefits Ordered but not yet Provided                                                  (594)        (1,995)
        Resources That Fund Expenses Recognized in Prior Periods                                5,007        176,157
        Resources that Finance the Acquisition of Assets or Liquidation of Liabilities              -           (107)
        Other Resources or Adjustments to Net Obligated Resources that do not
          Affect Net Cost of Operations                                                             -        347,180
    Total Resources used to Finance Items not part of the Net Cost of Operations                4,413        521,235
    Total Resources Used to Finance Net Cost of Operations                                    407,428        173,913
    Components Requiring or Generating Resources in Future Periods
        Future Funded Expenses                                                                250,738         11,525
    Total Components of Net Cost of Operations that will Require or Generate
     Resources in Future Periods                                                              250,738         11,525
    Components not Requiring or Generating Resources
        Depreciation and Amortization                                                         (16,452)          3,439
        Other                                                                                   8,770          (1,425)
    Total Components of Net Cost Operations that will not Require or Generate
     Resources in Future Periods                                                               (7,682)         2,014
    Total Components of Net Cost Operations that will not Require or Generate
     Resources in Current Periods                                                             243,056         13,539
    Net Cost of Operations                                                               $    650,484    $   187,452




   In FY 2009, the Office changed its reporting of Distributed Offsetting Receipts in the
   Statement of Budgetary Resources to comply with new reporting guidance from the Office of
   Management and Budget (OMB). This change in accounting policy resulted in the inclusion
   of the Office’s annual appropriations from Treasury of $407.4 million, and the exclusion of
   the investment activities in the Judicial Retirement Fund of $5.7 million, in the computation
   of Distributed Offsetting Receipts for the year ended September 30, 2009.


                                                       61

(This page left intentionally blank.)




                62
                  PART 4 

SUPPLEMENTARY SCHEDULES





       63
64
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Balance Sheets
As of September 30, 2009 and September 30, 2008
(in thousands)
                                                                               2009                                               2008
                                                           DC Judicial                                        DC Judicial
                                                           Retirement                        Consolidated     Retirement                       Consolidated
                                                          and Survivors     DC Federal       DC Pension      and Survivors     DC Federal      DC Pension
                                                          Annuity Fund     Pension Fund      Funds Total     Annuity Fund     Pension Fund     Funds Total

Assets
     Entity Assets
          Intra-Governmental Assets
                Fund Balance with Treasury                $           13             237              250    $           15            302              317
                Investments in GAS Securities, Net             128,752         3,710,545        3,839,297         124,750        3,702,559        3,827,309
                Interest Receivable from GAS Securities            639            26,396           27,035           1,090           30,416           31,506
                Advances to Others                                     8                70             78                 7             66               73
          Accounts Receivable, Net                                  -              6,807            6,807              -             6,832            6,832
          ADP Software, Net                                            7           5,550            5,557                10          8,495            8,505
          Equipment, Net                                            -                 -                  -                2             15               17
Total Assets                                              $    129,419         3,749,605        3,879,024    $    125,874        3,748,685        3,874,559

Liabilities
     Liabilities Covered By Budgetary Resources
            Intra-Governmental
                  Accounts Payable                        $         81               388              469    $          7               39               46
                  Accrued Payroll and Benefits                       3                25               28               2               21               23
            Accounts Payable                                        51             5,297            5,348              13            3,809            3,822
            Accrued Pension Benefits Payable                       672            47,766           48,438             611           48,100           48,711
            Actuarial Pension Liability                        122,428         3,557,822        3,680,250         118,482        3,565,150        3,683,632
            Accrued Payroll and Benefits                            28               274              302              24              222              246
     Total Liabilities Covered By Budgetary Resources          123,263         3,611,572        3,734,835         119,139        3,617,341        3,736,480

     Liabilities Not Covered By Budgetary Resources
          Actuarial Pension Liability                           34,169         5,334,675        5,368,844          43,150        5,076,606        5,119,756
Total Liabilities                                              157,432         8,946,247        9,103,679         162,289        8,693,947        8,856,236

Net Position
     Cumulative Results of Operations - Earmarked               (28,013)      (5,196,642)      (5,224,655)         (36,415)      (4,945,262)     (4,981,677)
Total Net Position                                              (28,013)      (5,196,642)      (5,224,655)         (36,415)      (4,945,262)     (4,981,677)

Total Liabilities and Net Position                        $    129,419         3,749,605        3,879,024    $    125,874        3,748,685        3,874,559

See accompanying independent auditors' report.




                                                                              65 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Net Cost
For the Years Ended September 30, 2009 and September 30, 2008
(in thousands)

                                                                       2009                                          2008
                                                   DC Judicial                                     DC Judicial
                                                   Retirement                      Consolidated    Retirement                    Consolidated
                                                  and Survivors      DC Federal    DC Pension     and Survivors    DC Federal    DC Pension
                                                  Annuity Fund      Pension Fund   Funds Total    Annuity Fund    Pension Fund   Funds Total

Program Costs
    Administrative Expenses                       $         833           14,599         15,432   $         913         17,501         18,414
    Pension Expense                                       3,052          766,409        769,461          18,724        300,936        319,660
Total Program Costs                                       3,885          781,008        784,893          19,637        318,437        338,074

Less: Earned Revenues
    Interest Earned                                        4,621         129,175        133,796           4,481        145,544        150,025
    Employee Contributions                                   613             -              613             597            -              597
Net Cost of Operations                            $       (1,349)        651,883        650,484   $      14,559        172,893        187,452

See accompanying independent auditors' report.




                                                                          66 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Changes in Net Position
For the Years Ended September 30, 2009 and September 30, 2008
(in thousands)
                                                                           2009                                                 2008
                                                     DC Judicial                                           DC Judicial
                                                     Retirement                          Consolidated      Retirement                         Consolidated
                                                    and Survivors        DC Federal      DC Pension       and Survivors      DC Federal       DC Pension
                                                    Annuity Fund        Pension Fund     Funds Total      Annuity Fund      Pension Fund      Funds Total

Cumulative Results of Operations

     Net Position - Beginning of Year               $      (36,415)        (4,945,262)      (4,981,677)   $     (28,847)        (5,112,667)       (5,141,514)

     Budgetary Financing Sources
        Appropriations Used                                     7,040         400,340         407,380             6,980           340,200           347,180

      Other Financing Sources
          Imputed Financing Sources                               13               113            126                11                98               109

      Total Financing Sources                                   7,053         400,453         407,506             6,991           340,298           347,289

      Net Cost of Operations                                    1,349        (651,833)        (650,484)         (14,559)          (172,893)        (187,452)

      Net Change                                                8,402        (251,380)        (242,978)           (7,568)         167,405           159,837

      Net Position - End of Year                    $      (28,013)        (5,196,642)      (5,224,655)   $     (36,415)        (4,945,262)       (4,981,677)

See accompanying independent auditors' report.




                                                                                  67 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combining Statements of Budgetary Resources
For the Years Ended September 30, 2009 and September 30, 2008
(in thousands)
                                                                           2009                                              2008
                                                       DC Judicial                                       DC Judicial
                                                       Retirement                        Combined        Retirement                        Combined
                                                      and Survivors     DC Federal      DC Pension      and Survivors     DC Federal      DC Pension
                                                      Annuity Fund     Pension Fund     Funds Total     Annuity Fund     Pension Fund     Funds Total
Budgetary Resources
Unobligated Balance - brought forward                 $         -                -               -      $           1               75              76
Recoveries of Prior Year Unpaid Obligations                      45            1,882           1,927               41            2,293           2,334
Budget Authority:
   Appropriations                                            19,780          927,023         946,803           19,039          827,394         846,433
   Spending Authority from Offsetting Collections:
      Earned:
       Collected                                                -              5,591           5,591              -             35,216          35,216
Temporarily Unavailable Pursuant to Public Law               (3,945)             -            (3,945)          (4,145)             -            (4,145)
Total Budgetary Resources                             $      15,880          934,496         950,376    $      14,936          864,978         879,914

Status of Budgetary Resources
Obligations Incurred:
    Direct                                            $      15,880          934,496         950,376    $      14,936          864,978         879,914
Unobligated Balance:
    Exempt from Apportionment                                   -                -               -                -                -               -
Total Status of Budgetary Resources                   $      15,880          934,496         950,376    $      14,936          864,978         879,914

Change in Obligated Balance
   Unpaid obligations brought forward, Oct. 1         $       1,542           58,358          59,900    $       1,488           57,594          59,082
Obligations Incurred                                         15,880          934,496         950,376           14,936          864,978         879,914
Gross outlays                                               (15,766)        (931,545)       (947,311)         (14,840)        (861,922)       (876,762)
Recoveries of Prior Year Unpaid Obligations, Actual             (45)          (1,882)         (1,927)             (41)          (2,293)         (2,334)
Unpaid Obligated Balance, Net, End of Period:                 1,611           59,427          61,038            1,543           58,357          59,900

Net Outlays
   Gross Outlays                                             15,766          931,545         947,311           14,840          861,922         876,762
   Offsetting collections                                       -             (5,591)         (5,591)             -            (35,216)        (35,216)
   Distributed offsetting receipts                           (7,040)        (524,102)       (531,142)          (5,077)        (142,248)       (147,325)
Net Outlays                                           $       8,726          401,852         410,578    $       9,763          684,458         694,221

See accompanying independent auditors' report.




                                                                             68

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Intra-governmental Balances
As of and for the years ended September 30, 2009 and September 30, 2008
(in thousands)


                                                                                                    2009                                             2008
                                                                             D.C. Judicial                                       D.C. Judicial
                                                                              Retirement      D.C. Federal   Consolidated        Retirement      D.C. Federal   Consolidated
                                                                             and Survivors      Pension      D.C. Pension       and Survivors      Pension      D.C. Pension
Department              Intra-governmental balance description               Annuity Fund        Fund        Funds Total        Annuity Fund        Fund        Funds Total
                  Assets
Treasury          Fund Balance with Treasury                             $            13             237            250     $            15            302             317
Treasury          Investments in GAS securities, net                             128,752       3,710,545      3,839,297             124,750      3,702,559       3,827,309
Treasury          Interest receivable from GAS securities                            639          26,396         27,035               1,090         30,416          31,506
Treasury          Advances to Others                                                   8              70             78                   7             66              73
                                  Total intra-governmental assets        $       129,412       3,737,248      3,866,660     $       125,862      3,733,343       3,859,205
                  Liabilities
Treasury          Accounts Payable                                       $            80              386           466     $              7            36              43
GSA               Accounts Payable                                                    —                 3             3                   —              3               3
Gen Fund          Accrued Payroll and Benefits                                        —                 1             1                   —              6               6
OPM               Accrued Payroll and Benefits                                         3               24            27                   2             15              17
                                  Total intra-governmental liabilities   $            83               414           497    $              9             60              69
                  Revenues
Treasury          Interest earned/loss from GAS Securities, Net          $         4,621        129,175         133,796     $          4,481       145,544         150,025
OPM               Imputed Financing Sources                                           13            113             126                  11             98             109
                                  Total intra-governmental revenues      $         4,634        129,288         133,922     $          4,492       145,642         150,134
                  Expenses
Treasury          Salaries and related benefits                          $             1                14           15     $              (1)           (9)            (10)
OPM               Salaries and related benefits                                       50              450           500                   43           396             439
Gen Fund          Salaries and related benefits                                       15               131          146                   13           118             131
Treasury          Contractual Services                                               379            3,025         3,404                  299         2,327           2,626
OPM               Contractual Services                                                —                 —            —                     1              9             10
Treasury          Rent                                                                46              419           465                  79            710             789
GPO               Other                                                                6                 3            9                   —             66              66
Treasury          Other                                                                1                 9           10                    (5)          (42)            (47)
                                  Total intra-governmental expenses      $           498            4,051         4,549     $            429         3,575           4,004
See accompanying independent auditors' report.




                                                                                             69 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Investments in GAS Securities - Net By Fund
As of September 30, 2009 and September 30, 2008
(in thousands)


                                                                                      2009                                                           2008
                                                                        Unamortized                                                    Unamortized
                                                                         Premium             Investments   Market                       Premium             Investments   Market
                                                             Cost          Net                   Net       Value            Cost          Net                   Net       Value
D. C. Judicial Retirement and Survivors Annuity Fund:
Intragovernmental Securities

  Non-marketable Par Value                              $      7,695            -                  7,695      7,695    $      4,062            -                  4,062      4,062
  Non-marketable Market-based                                116,840          4,217              121,057    125,480         117,728          2,960              120,688    123,763

  Total                                                 $    124,535          4,217              128,752    133,175    $    121,790          2,960              124,750    127,825

D.C. Federal Pension Fund:
Intragovernmental Securities

  Non-marketable Par Value                              $    304,638            -                304,638    304,638    $    176,156            -                176,156    176,156
  Non-marketable Market-based                               3,327,341        78,566            3,405,907   3,579,555       3,463,313        63,090            3,526,403   3,661,274

  Total                                                 $   3,631,979        78,566            3,710,545   3,884,193   $   3,639,469        63,090            3,702,559   3,837,430

See accompanying independent auditors' report.




                                                                                        70 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Investments in Nonmarketable Market-Based GAS Securities - Net By Fund and Maturity
As of September 30, 2009 and September 30, 2008
(in thousands)


                                                                              2009                                               2008
                                                           D.C. Judicial                                     D.C. Judicial
                                                            Retirement     D.C. Federal   Consolidated        Retirement     D.C. Federal   Consolidated
                                                           and Survivors     Pension      D.C. Pension       and Survivors     Pension      D.C. Pension
                                                           Annuity Fund       Fund        Funds Total        Annuity Fund       Fund        Funds Total
Time of Maturity

Less than or equal to 1 year                           $          8,257       568,419         576,676    $         30,744        696,884        727,628
More than 1 year and less than or equal to 5 years               48,329      2,167,602      2,215,931              43,975      2,128,041      2,172,016

More than 5 years and less than or equal to 10 years             64,471       669,886         734,357              45,969        701,478        747,447

Total                                                  $        121,057      3,405,907      3,526,964    $        120,688      3,526,403      3,647,091

See accompanying independent auditors' report.




                                                                              71 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Intragovernmental Costs and Exchange Revenue
For the years ended September 30, 2009 and September 30, 2008
(in thousands)

                                                                        2009                                               2008
                                                     D.C. Judicial                                     D.C. Judicial
                                                      Retirement     D.C. Federal   Consolidated        Retirement      D.C. Federal   Consolidated
                                                     and Survivors     Pension      D.C. Pension       and Survivors      Pension      D.C. Pension
                                                     Annuity Fund       Fund        Funds Total        Annuity Fund        Fund        Funds Total
Program Costs
  Intragovernmental Costs                        $           498            4,051         4,549    $            429           3,575          4,004
  Public Costs                                              3,387        776,957       780,344               19,208        314,862         334,070
     Total Program Costs                                    3,885        781,008       784,893               19,637        318,437         338,074
Program Revenue
  Intragovernmental Earned Revenue                         (4,621)      (129,175)      (133,796)              (4,481)      (145,544)      (150,025)
  Public Earned Revenue                                      (613)             -           (613)               (597)              -           (597)
     Total Program Revenue                                 (5,234)      (129,175)      (134,409)              (5,078)      (145,544)      (150,622)


     Net Program Cost                            $         (1,349)       651,833       650,484     $         14,559        172,893         187,452


See accompanying independent auditors' report.




                                                                        72 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Administrative Expenses - By Fund
For the years ended September 30, 2009 and September 30, 2008
(in thousands)

                                                                        2009                                                 2008
                                                     D.C. Judicial                                       D.C. Judicial
                                                      Retirement     D.C. Federal     Consolidated        Retirement      D.C. Federal   Consolidated
                                                     and Survivors     Pension        D.C. Pension       and Survivors      Pension      D.C. Pension
                                                     Annuity Fund       Fund          Funds Total        Annuity Fund        Fund        Funds Total
Intragovernmental Expenses
  Salaries and Related Benefits                  $             66            595              661    $             55             505            560
  Contractual Services                                        379          3,025            3,404                 300           2,336          2,636
  Rent                                                         46            419              465                  79             710            789
  Noncapitalized Equipment/Software                           -              -                -                   -                 2              2
  Other                                                         7             12               19                   (5)            22             17
     Total intragovernmental expenses                         498          4,051            4,549                 429           3,575          4,004

Public Expenses
  Salaries and Related Benefits                               240          2,208            2,448                 203           1,902          2,105
  Contractual Services                                         88          5,359            5,447                  45           6,919          6,964
  Noncapitalized Equipment/Software                           -              -                -                     3             -                3
  Amortization/Depreciation                                     5          2,960            2,965                 230           5,083          5,313
  Other                                                         2             21               23                   3              22             25
     Total public expenses                                    335         10,548           10,883                 484          13,926         14,410


     Total administrative expenses               $            833         14,599           15,432    $            913          17,501         18,414

See accompanying independent auditors' report.




                                                                               73 

 Department of the Treasury
 Departmental Offices
 Office of D.C. Pensions
 Pension Expense - By Fund
 For the years ended September 30, 2009 and September 30, 2008
(in thousands)

                                                                         2009                                              2008
                                                      D.C. Judicial                                     D.C. Judicial
                                                       Retirement     D.C. Federal   Consolidated        Retirement     D.C. Federal   Consolidated
                                                      and Survivors     Pension      D.C. Pension       and Survivors     Pension      D.C. Pension
                                                      Annuity Fund       Fund        Funds Total        Annuity Fund       Fund        Funds Total

Normal Cost                                       $          4,223           -             4,223    $          4,200            -            4,200
Actuarial (Gains) Losses During the Period                  (9,415)      370,126         360,711               5,724       (104,964)       (99,240)
Interest on Pension Liability During the Period              8,244       396,283         404,527               8,800        405,900        414,700
Total Pension Expense                             $          3,052       766,409         769,461    $         18,724        300,936        319,660

See accompanying independent auditors' report.




                                                                           74 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Reconciliation of Net Cost of Operations to Budget
For the Years Ended September 30, 2009 and September 30, 2008
(in thousands)
                                                                                                            2009                                                 2008
                                                                                      DC Judicial                                            DC Judicial
                                                                                      Retirement                           Consolidated      Retirement                      -   Consolidated
                                                                                     and Survivors        DC Federal       DC Pension       and Survivors      DC Federal        DC Pension
                                                                                     Annuity Fund        Pension Fund      Funds Total      Annuity Fund      Pension Fund       Funds Total
Budgetary Resources Obligated
    Obligations Incurred                                                             $      15,880             934,496          950,376     $      14,936           864,978           879,914
    Less: Spending Authority from Offsetting Collections and Adjustments                        45               7,474            7,519                41            37,509            37,550
    Obligations Net of Offsetting Collections and Recoveries                                15,835             927,022          942,857            14,895           827,469           842,364
    Less: Offsetting Receipts                                                                7,040             524,102          531,142             5,077           142,248           147,325
    Net Obligations                                                                          8,795             402,920          411,715             9,818           685,221           695,039
    Imputed Financing from Costs Absorbed by Others                                             13                 113              126                11                98               109
    Total Resources Used to Finance Activities                                               8,808             403,033          411,841             9,829           685,319           695,148
Resources Used to Finance Items Not Part of the Net Cost of Operations
    Change in Budgetary Resources Obligated for Goods, Services and
      Benefits Ordered but not yet Provided                                                    (108)               (486)            (594)             101            (2,096)           (1,995)
    Resources That Fund Expenses Recognized in Prior Periods                                  5,033                 (26)           5,007                -           176,157           176,157
    Resources that Finance the Acquisition of Assets or Liquidation of Liabilities                -                   -                -              (59)              (48)             (107)
    Other Resources or Adjustments to Net Obligated Resources that do not
      Affect Net Cost of Operations                                                              -                   -                -             6,980           340,200           347,180
Total Resources used to Finance Items not part of the Net Cost of Operations                 4,925                (512)           4,413             7,022           514,213           521,235
Total Resources Used to Finance Net Cost of Operations                                       3,883             403,545          407,428             2,807           171,106           173,913
Components Requiring or Generating Resources in Future Periods
    Future Funded Expenses                                                                           -         250,738          250,738            11,525                    -          11,525
Total Components of Net Cost of Operations that will Require or Generate
 Resources in Future Periods                                                                         -         250,738          250,738            11,525                    -          11,525
Components not Requiring or Generating Resources
    Depreciation and Amortization                                                                 5            (16,457)          (16,452)             (429)           3,868              3,439
    Other                                                                                    (5,237)            14,007             8,770               656           (2,081)            (1,425)
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Future Periods                                                                 (5,232)            (2,450)           (7,682)             227               1,787            2,014
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Current Periods                                                                (5,232)           248,288          243,056            11,752             1,787            13,539
Net Cost of Operations                                                               $       (1,349)           651,833          650,484     $      14,559           172,893           187,452

See accompanying independent auditors' report.




                                                                                                75 

